<html>
<title> - OVERSIGHT ON EPA'S CHILDREN'S HEALTH PROTECTION EFFORTS</title>
<body><pre>[Senate Hearing 110-1265]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1265
 
                     OVERSIGHT ON EPA'S CHILDREN'S
                       HEALTH PROTECTION EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.access.gpo.gov/congress.senate

                               __________
                               
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
88-909 PDF                     WASHINGTON : 2015                           

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 16, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     7
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    49
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   213

                               WITNESSES

Gray, Hon. George, Assistant Administrator for the Office of 
  Research and Development, United States Environmental 
  Protection Agency..............................................    10
    Prepared statement...........................................    13
Stephenson, John B., Director, Natural Resources and Environment, 
  Government Accountability Office...............................    22
    Prepared statement...........................................    24
Marmagas, Susan West, Director of Health Programs, Commonweal....    62
    Prepared statement...........................................    65
    Responses to additional questions from Senator Boxer.........    75
Trasande, Leo, Co-Director, Children's Environmental Health 
  Center, Mount Sinai Medical Center.............................    76
    Prepared statement...........................................    79
    Responses to additional questions from Senator Inhofe........   143
Brent, Robert, Distinguished MD, Ph.D of Pediatrics, Radiology 
  and Pathology, Thomas Jefferson University, A.I. Dupont 
  Hospital for Children..........................................   145
    Prepared statement...........................................   147
    Responses to additional questions from Senator Inhofe........   203

                          ADDITIONAL MATERIAL

Statement of Dana Best, MD, MPh, FAAP on Behalf of the American 
  Academy of Pediatrics..........................................   215


                     OVERSIGHT ON EPA'S CHILDREN'S 
                       HEALTH PROTECTION EFFORTS

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Lautenberg, Cardin, Klobuchar, 
Clinton, Whitehouse, and Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. I understand from Senator 
Barrasso that he will be joining in. Why don't you join us up 
here then, Senator? We would love to have you.
    I believe this oversight hearing on the Environmental 
Protection Agency's Children's health protection record is key 
to our work. Protecting children's health should be a top-level 
priority for every EPA program. Children are not little adults; 
they can be extremely vulnerable to harm from toxic chemicals, 
often far more vulnerable and more exposed to pollutants than 
adults. Their rapidly growing bodies, complex and developing 
nervous and immune systems, their way of exploring their 
environment, including by putting just about everything they 
find into their mouths, all make children more vulnerable to 
harm from toxic pollutants than adults.
    Their small size means they also consume more air, they 
drink more liquids, they eat more food for their body weight 
than do adults. A ten-pound infant may not be able to withstand 
the same amount of air pollution as a 170-pound adult male 
without suffering life-long injury.
    On April 21, 1997, President Clinton issued Executive Order 
13045 titled, Protection of Children from Environmental Health 
Risks and Safety Risks. This order established a national 
policy requiring all Federal agencies to ``make it a high 
priority'' to assess environmental health risks that may 
disproportionately affect children and to ensure agencies' 
policies, programs, activities, and standards address such 
risks.
    The order also created an inter-agency task force that 
reported to the President with recommendations on ways to 
better protect children's health.
    In May 1997 Administrator Browner established the Office of 
Children's Health Protection to help EPA implement the order 
and to make the protection of children's health a fundamental 
goal of public health and environmental protection in the 
United States.
    EPA also created a Federal Advisory Committee on Children's 
Health Protection to advise EPA on children's environmental 
health issues, as it develops standards, communicates with the 
public, and conducts research.
    When it was first created, EPA used the Office of 
Children's Health Protection and the Children's Health 
Protection Advisory Committee in a proactive way to help the 
Agency better protect our children. Unfortunately, it has 
become clear that EPA has taken a dangerous u-turn on 
children's health protection.
    My colleagues and I have spoken out and fought against EPA 
decisions that put our children's health at risk. Many of us 
have introduced bills. Many of us have fought against these 
regulations on perchlorate, on mercury, dangerous air 
pollutants such as smog and toxic soot and lead. We all know 
that children are more vulnerable than adults to these threats, 
and we know that these contaminants are in the air we breathe, 
the water we drink, and the land that we live in, and I am 
tired of people saying our children are our future as they roll 
back protections and don't do everything they can to protect 
our children.
    Because of the disturbing pattern in rollback after 
rollback in this Administration, Senator Clinton joined me in 
asking the GAO to investigate EPA's record on children's 
health. Today they are going to give their interim findings.
    The early results of GAO's investigation could not be more 
deeply troubling. GAO has found that EPA has failed to followup 
on recommendations of its own children's health experts and has 
weakened the Office of Children's Health Protection. Who are 
they listening to? The special interests. That is the answer, 
and it is absolutely unacceptable.
    You may also remember the infamous Cheers program that EPA 
proposed jointly with the pesticide industry in 2005. It would 
have provided gifts to low-income families to participate in a 
study to evaluate children's exposure to toxic pesticides in 
their homes. They actually had kids crawling around in 
pesticides that were sprayed as part of the experiment. That is 
what they did. And then they were going to pay the families 
money, give them a camera, a video camera to follow the 
children around while they crawled around the sprayed areas. 
That is the reason I voted against Johnson when his vote came 
up.
    We forced EPA to cancel that unethical study. We required 
EPA to issue new rules banning these types of tests. However, 
EPA's rules failed to sufficiently protect children. I have 
joined other colleagues in filing an amicus brief and a court 
challenge to EPA's rules, and EPA has a string of losses in the 
courts, and we trust they will lose this one, too.
    I was stunned when EPA recently tried to quietly issue a 
proposal that could have allowed studies very similar to the 
Cheer's program. At my request, my Committee staff asked EPA a 
series of detailed questions about the ethical and other 
aspects of this proposal. EPA was unable to defend this program 
and answer these questions, so last week they canceled the 
proposal. Good. But why would EPA consider it in the first 
place?
    We know that the failure to protect children's health has 
consequences, and when you hear the sound of my voice it is not 
happy because I am not only a Senator, but I am also a mother 
and I am a grandmother and I am going to be a grandmother 
again. Senator Lautenberg and Senator Cardin, if you would 
please give me this moment--I know that when my daughter has to 
consider what she can eat because of the levels of mercury in 
the food, where she can go, what she can do, we already know 
that premature babies are coming more and more often because of 
a lot of these exposures. This is not the time to pull back 
from protecting the public.
    My colleagues, I know you are with me 100 percent on this, 
because we know the failure to protect our children has 
consequences.
    Senator Lautenberg in every hearing we have had has gone 
through chapter and verse the experience of his own grandchild 
due to asthma, and I hope he will do it again, because he can't 
do it enough times for me, because that makes it real.
    We will hear testimony from Dr. Trasande of Mount Sinai 
Medical Center today that ``chronic diseases of environmental 
origin have become epidemic in American children. These 
diseases include, one, asthma; two, birth defects; three, 
neurodevelopmental disorders; four, leukemia; five, brain 
cancer in children; six, testicular cancer in adolescents; and, 
last but not least, pre-term birth.
    We also will hear from GAO that EPA no longer has high-
level infrastructure or mandates to coordinate Federal 
strategies for children's environmental health. Let me repeat 
that. We will hear from GAO that EPA no longer has high-level 
infrastructure or mandate to coordinate Federal strategies for 
children's environmental health. Now that does not reflect the 
values of the American people and our families. Children's 
health should be our top priority.
    I will do everything in my power, and I know I speak for 
others on this committee, to ensure that EPA's inexcusable 
policies of neglecting children's health and carrying out its 
mission is reversed either now or when the next Administration 
takes over from this dismal, dismal record.
    I would ask Senator Barrasso to now speak.

          OPENING STATEMENT OF HON. JOHN A. BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    Protecting children's health is a serious issue. As the 
father of three, I understand the concerns of parents wanting 
to protect their children from illness, from disease. As a 
doctor also and a trauma surgeon, a doctor who takes care of 
young children, I have treated children so that they can grow 
up to lead productive lives. I have taken an oath both as a 
Senator and as a doctor to work to improve the lives of people, 
and especially children. Our children must be protected. We 
must do whatever we can to achieve this goal.
    But I think we can all agree that protecting children is a 
bipartisan issue. There may be different approaches to how to 
do it best, but it is a bipartisan issue. There is nothing that 
we wouldn't do to provide for our children. Children need safe 
drinking water. Children need lifesaving medication. They need 
safe food to eat and clean air to breathe.
    One way we provide these things for our children and our 
communities is through scientific innovation. Every day 
American ingenuity is generating the next generation of child 
safety products and medical devices. They are being created 
under a risk-based regulatory process under the EPA. But there 
is risk, unfortunately, that this next generation of life-
saving innovations will not be developed. That is because some 
believe that the best way to protect our communities is to ban 
any chemical that might, even in the most remote instance, have 
a negative health effect.
    This approach is designed to instill fear and precaution in 
families which will prevent future technologies that can make a 
real difference in the lives of children. Chlorine, for 
example, is a base ingredient. It is in disinfectants. You can 
read the possible harmful effects on a bottle of Lysol. In 
large doses, chlorine is toxic. And we often say in the medical 
world the dose makes the poison. Despite this, chlorine-based 
disinfectants are used every day to clean day care child 
centers, as disinfectants in hospitals across the Country. That 
is because chlorine kills e-coli, salmonella, other food-borne 
illnesses and bacteria that are a threat to infants, to 
toddlers, and to pre-teen children.
    But in addition to disinfectants, chlorine chemicals are 
used to make prosthetic devices, PVC, which is a common 
chlorine-containing plastic used to construct prosthetic legs 
and arms for children who have lost legs because of birth 
defects. Thanks to these devices, many of the children can now 
lead normal lives and participate in most activities. PVC is 
used in blood bags and IV fluid bags and tubing to help deliver 
medication needed to care for young patients.
    These things all improve people's lives.
    I believe that the approach that the EPA uses is a correct 
approach, setting standards for clean water or for clean air or 
for what chemicals can be approved. You need to have a risk-
based approach. Such an approach has peer review, it verifies 
data, it takes laboratory work and applies that to what you 
know about real-world exposures. Then you make a determination 
as to what is the best benefit to the environment and public 
health in making regulations.
    In a previous hearing earlier this year I highlighted an 
article that ran in the Washington Post. The story is entitled, 
For Children, A Better Beginning. In brief, it says, ``In a 
wide-ranging look at how children have fared in the first 
decade of life, a study released offers a promising picture of 
American childhood. Sixth graders feel safer at school. Reading 
and math scores are up for 9-year-olds. More pre-schoolers are 
vaccinated. Fewer are poisoned by lead.''
    The analysis was created as a composite index of more than 
25 key national indicators reports an almost 10 percent boost 
in children's well-being between 1994 and 2006.
    Now, the article mentioned possible reasons for the trend: 
better medical care, better nutrition, mandatory use of car 
seats, safer playground equipment. All of these things were 
brought about by new innovation, the kind of innovation that 
comes about when you operate under a risk-based regulatory 
approach.
    There is still more work that needs to be done. Children 
across the globe face new dangers from new diseases and other 
health threats. We must continue to review our regulations 
using a risk-based regulatory system to make sure we are 
adequately protecting our children. But the evidence clearly 
shows that the EPA is doing something right. Let's make sure 
that we are prepared here at home to address these challenges 
by keeping America the world leader in innovations that protect 
our children.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Let me just say for the record there isn't anyone on the 
Democratic side of the aisle that doesn't support risk-based 
analysis. What we do not support is tainted risk-based analysis 
by taking the scientists out and putting the special interests 
in, so let's be clear. Let's not set up a straw person here.
    Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, let me thank my colleague for his 
courtesy and thank our Chairman for calling this hearing and 
for your dedication to the responsible of this Committee for 
oversight, which is one of the principal responsibilities we 
have as to whether the Office of Children's Health Protection 
is carrying out its mission to provide adequate protection for 
our children.
    Madam Chair, I would ask my entire statement be made part 
of the record and let me just comment on a conference that I 
attended yesterday in Baltimore dealing with healthy homes in 
which agencies were represented. I think we had a good group 
there. I look forward to their recommendations.
    It pointed out something that should be obvious in our 
Country, and that is that children have a right to expect a 
healthy environment. Children are not miniature adults. They 
deal with contaminants differently. Their bodies are growing. 
It is for that reason that we set up special protection for our 
children. They need our special protection.
    We have a responsibility to make sure that the issues the 
that chairman referred to in regards to mercury, or an area 
that I have been involved with for many years, lead contaminant 
where we have lead poisoning of our children. You know, when a 
child suffers from a high level of lead in his or her blood, it 
robs that child of their full potential. They are more likely 
to drop out of school. They are more likely to have learning 
disabilities and are not able to achieve their full God-given 
potential. That is something that each one of us should be 
concerned about, because lead poisoning is totally preventable. 
This is a preventable disease.
    Yes, I am proud that in Maryland we have made progress. We 
have reduced actually the children exposed to lead by about 
one-third over the last 12 years, and that is good numbers, but 
there are still too many children in my State and too many 
children in this Country that have a high level of lead in 
their blood that could have been prevented. We need to do more.
    We can talk about the sub-standard housing in America where 
children are exposed to mold and mildew and pests and rodents, 
and it aggravates their ability, and we have asthma, and we 
have children being denied their full potential because we 
haven't dealt with that environmental risk.
    So I think the frustration you are going to hear today is 
the fact that we have an interim report from the GAO that 
confirms what we, I think, knew from our own gut, and that is 
that the agency that was created to protect our children and 
speak up for our children, the Office of Children's Health 
Protection, has not utilized the services of its own advisory 
group, has not followed the recommendations that are important 
to protect our children, and that this Administration is not 
putting our children first and protecting them from 
environmental risks, which was the clear intent of Congress in 
establishing this agency and the responsibility of this 
Committee to make sure that the agency is aggressive in looking 
for ways. Rather than avoiding its responsibility, it should be 
using its Advisory Committee, it should be looking for creative 
ways to help our children so that we can be more aggressive in 
eliminating the risks that are out there.
    Madam Chairman, again I thank you for holding this hearing.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you for calling this hearing on a 
topic of great importance to me. I have been involved in 
children's environmental health issues, especially lead-
poisoning of our children, dating back to my time in the State 
legislature. I appreciate the opportunity to address this key 
issue.
    Children are not miniature adults. They are exposed to 
different environmental threats and their growing bodies 
process some contaminants differently than adults in important 
ways. The Office of Children's Health Protection was 
established following the recognition that children are 
affected uniquely by environmental risk factors and therefore 
need special protection. The goal of the office's creation was 
to ensure that the EPA established protections to specifically 
address threats to children's health and ensure a safe 
environment for every child.
    Today we have reason to believe that this goal is not being 
achieved. The interim findings of the Government Accountability 
Office suggest that OCHP has failed to utilize the Children's 
Health Protection Advisory Committee, and has ignored the 
recommendations of this committee. The office has failed to 
take actions that would reduce the risks children face from 
environmental threats and has shown a lack of focus on 
children's health issues.
    Environmental threats affect all children, but we have 
increasingly seen that they are most detrimental to infants and 
children who live in low income areas. There is significant 
evidence that environmental risks have negative impacts 
prenatally when pregnant women are exposed to unhealthy 
conditions. The impact on these populations, often 
unrepresented and under served, highlights the critical nature 
of OCHP's task. To ensure safe environments for all children is 
to encourage the equality of opportunity that is fundamental to 
America's ideals.
    In my home State of Maryland, as in many states, children 
are at risk of being exposed to mercury through our waterways, 
lead in housing and commercial products, and untested 
pesticides, all of which have the potential for long-term 
health consequences. As a State we have attempted to address 
several of these issues, and have succeeded in decreasing 
childhood exposure to lead by thirty-three percent since 1995. 
However, we continue to see trends of the greatest impact in 
infants and low-income populations. It is critical that the 
Federal Government address these issues to lead and assist 
states in making children's health a demonstrated priority 
nationwide.
    EPA has not done enough to protect children's health. I 
look forward to hearing from today's witnesses and to a 
recommitment from EPA to meet the special needs of America's 
children.
    Thank you.

    Senator Boxer. Thank you very much.
    Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    One who serves on this Committee with any exposure to the 
operation of the Committee knows how forceful, how concerned 
our chairperson is to these things that endanger children or 
that permit us to lower our standards for what ought to be a 
good air quality standard or anything that presents risk.
    When we talk about risk based, I think there is another way 
to view this, and that is on a precautionary basis, because 
when you say risk based it means that there are a group of kids 
who might become terribly affected, but the numbers aren't that 
great. Any child, any family that has children coming and knows 
that the risk is one in a thousand versus one in a hundred may 
be left out of the calculation because it doesn't furnish the 
fullest risk consideration.
    This Committee once again finds itself forced to bring 
attention to dangerous shortcomings of the Bush 
administration's EPA. Simply put, this Administration 
repeatedly failed to do what they can do to protect the health 
of our children, and yet the EPA doesn't seem at all fazed by 
it. They could have set higher air quality standards so that 
our children are protected from asthma.
    Senator Boxer was kind enough to remember that I have a 
grandchild who suffers from asthma, and it presents a lot of 
problems when my daughter takes her son to play soccer or 
another sport. The first thing she does is check where the 
nearest clinic is, emergency clinic, in case he starts to 
wheeze. She has to get him over there, regardless of where they 
stand in their games. That is her first concern, and I agree 
with that.
    EPA could have made sure toxics and other industrial 
chemicals used in thousands of everyday products, from plastics 
to children's toys, were finally regulated, but they failed to 
act.
    In fact, both of these changes were recommended by the 
EPA's own expert committee, the Children's Health Advisory 
Committee, and, as GAO will testify today, the EPA has 
chronically ignored the advice of these experts and repeatedly 
set standards too low to protect our children's health.
    Out of the 80,000 chemicals and products that are found in 
our homes, around our children, the EPA has only tested 200. 
This statistic is the reason that I was joined by Chairman 
Boxer, Senators Clinton, Menendez, Carey, Schumer, Whitehouse 
to introduce the Kid-Safe Chemical Act instead of waiting for a 
chemical to make someone sick, are hoping for the EPA to 
prevent that from happening. We need to prove that chemicals 
are safe before they get into the hands of consumers. 
Precaution.
    Our bill would direct the EPA to make sure that every 
chemical in every product is safe before it ends up on the 
store shelves or in our homes, and would put special emphasis 
on chemicals that are used by children.
    We already regulate pesticides and pharmaceuticals this 
way. It is simply common sense that we do the same for 
chemicals that are used in consumer products.
    We have so many other contingent things that concern us, 
and that is the lack of health care coverage for lots of young 
mothers-to-be, particularly in the teenage area. Some of those 
women see a doctor for the first time when labor begins. So we 
have an obligation to make sure that they are carrying a 
healthy child, to whatever extent we can.
    Also, as we look at things, we have to note that in the 
State of California, for instance, Senator Boxer, in the last 
10 years autism has increased as an incident over 200 percent, 
and in the State of New Jersey we know it is believed that one 
out of ninety-four males being born will be autistic. It is a 
terrible thing.
    We need whatever help we can get. For the EPA to ignore the 
recommendations of the Committee is absolutely unacceptable.
    I thank you.
    Senator Boxer. Senator, thank you so much for your 
constancy on this issue.
    We are joined by Senator Whitehouse. Senator Clinton is 
also on the way, so I told her staff that when she gets here we 
will finish whoever is speaking on the panel and let her make 
her opening statement, since she joined with me in calling for 
the GAO investigation.
    I want to make a point that Senator Whitehouse, before he 
came here he was Attorney General in his State, and he took the 
leadership on the lead issue, protecting children from lead, so 
I am just so pleased you are here, Senator. Please go ahead.

OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM 
                   THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. And thank you for 
holding this hearing.
    It is, in many respects, unpleasant that we have to be 
here, and I hope very much that whoever is elected President 
they put in place leadership at EPA so that these sorts of 
hearings are no longer necessary, because my at this point very 
strongly held view is that they represent an absolutely abject 
failure of governance and integrity at the Environmental 
Protection Agency right now. I have mentioned this on many 
occasions.
    I will address the ozone issue briefly in my remarks right 
now because it is so important to Rhode Island's children. We 
get huge ozone load from midwestern power plants. As Attorney 
General I had to file suit to try to get action, and it 
continues to the point where Rhode Island, which is a beautiful 
State where people come to visit, which has a wonderful 
Atlantic shore, from time to time in the summer you drive in to 
work and you hear on the radio the announcements that this is 
not a safe day to breathe the air if you are elderly or if you 
are an infant or if you have breathing difficulties, and it is 
because of the level of ozone.
    Here is the agency that is supposed to champion 
environmental protection. It is supposed to be their sole 
mission. It is right in their founding statement by the first 
administrator that that is supposed to be the case. And when 
you look what they did on ozone, they got the answer 
substantively wrong, as they have on many environmental 
standards. They disregarded the advice of their own scientists 
and others. The procedures, as we have shown, in many of their 
decisionmaking have been deliberately manipulated to allow 
interference. So they have actually undercut the very 
administrative integrity and structure of the organization.
    Finally, on other issues, we have had the administrator 
come in and, in my opinion, lie to this Committee as part of a 
calculated scheme to obscure the White House's political 
fingerprints on the decision that EPA purported to have made 
itself in the California waiver decision.
    So the rot is very serious over there, in my estimation, at 
this point in its leadership. It looks very much like what 
people talked early on as the regulatory infrastructure was 
built in the United States, the great danger was a regulatory 
capture. This looks like an agency that is now captive in the 
hands of industry and is led by people whose job is not to 
follow the science, is not to protect the public, but is to 
deliver for the industry and then say whatever nonsense is 
necessary to try to cover their tracks to try to hang on to it. 
Because the American people certainly aren't going to put up 
with somebody who says, I am here to ruin this agency. I am 
here to hurt children's health protection. I am here to deliver 
for industry polluters. You can't be dumb about it; you have 
got to be clever. You have got to be crafty. You have got to be 
familiar with the kind of phony science that has become a minor 
industry in this Country to create doubt where no doubt should 
lie.
    That is the strategy right now, and it makes it very 
awkward to have these hearings, because what we get it the 
screen of falsehood and prevarication that is designed to cover 
up the fact that this is an agency that has sold out at the 
highest levels.
    I have called for the Administrator's resignation. I did it 
with great reluctance. The Chairman was gracious enough to join 
me and, in fact, lead that call, along with other members of 
the Committee, including Senator Lautenberg. I think we have 
kind of had it.
    In the limited time remaining in this Administration it is 
a hard call to know whether it is worth just looking forward, 
moving on, and hoping it will be clean next time, or try to 
continue to root at the problem. I am very proud that, despite 
the limited time remaining, our Chairman has decided to root 
out this problem, because it is not just a problem of 
environmental protection; it is a problem of the integrity of 
Government at this stage, and we need to make sure this sort of 
thing doesn't happen again in American governmental 
organizations.
    I thank the Chair.
    Senator Boxer. I thank you for your very strong statement. 
I share every bit of what you said. I believe that you are 
right on target here.
    I think I want the record to show that we invited 
Administrator Johnson again. Is this the fifth time? He hasn't 
been here since March. Senators Lautenberg and Whitehouse and 
my friends on the other side who aren't here, we have an 
Administrator, as I understand it--correct me if I am wrong--
when he came to testify said he was thrilled to be the choice 
for Administrator. We asked him, as we do everyone, will you 
come before this Committee whenever this Committee needs you to 
be here? He said yes.
    Well, Senators, I am looking at that, because if somebody 
says yes--and I believe he was under oath at the time because 
it was in testimony--and he hasn't shown up since March, April, 
May, June, July, August, September--six months, and we have 
asked him to come to a number of hearings, and so far we have 
not received an affirmative response.
    I am pursuing my remedies on that. You would think he would 
show up to talk about children. He said, I remember so clearly 
when we interviewed him when he came forward and he was before 
the Committee how proud he was of his kids and his grandkids 
were his biggest joy, and I believe that. Well, why isn't he 
here? He is hiding from this Committee and the American people. 
He is hiding from the American people.
    So we are going to hear from The Honorable George Gray, 
Assistant Administrator for research and development at the 
EPA, and John Stephenson, GAO, Director, Environment and 
Natural Resources. We will ask each of you to speak for 5 
minutes, please, and we will ask questions.
    Mr. Gray.

STATEMENT OF HON. GEORGE GRAY, ASSISTANT ADMINISTRATOR FOR THE 
OFFICE OF RESEARCH AND DEVELOPMENT, UNITED STATES ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Gray. Thank you, Madam Chair and members of the 
Committee. My name is George Gray and I am the Assistant 
Administrator for the Office of Research and Development and 
EPA, and I also serve as Agency Science Advisor.
    Thank you for the opportunity to appear before the 
Committee to discuss an issue that is critically important to 
the American people and the future of our Nation, our 
children's health. As a Federal agency whose mission is to 
protect health and the environment, safeguarding children from 
unsafe exposures to chemicals and other toxic substances is a 
top priority at EPA.
    On a personal note, as a parent with two growing children 
of my own, I know how important it is that we base our 
decisions on sound science to make sure that our children are 
safe from environmental harm. That is why EPA is constantly 
seeking ways to enhance children's health and why my office is 
producing and funding the best science to inform regulatory 
decisions.
    Today I will highlight several key programs and regulations 
which were put in place to ensure that EPA continues to protect 
human health and children's health, and I will also discuss 
some of EPA's ongoing scientific research and analyses on this 
topic, as well as some publicly available resource guides for 
the public.
    Because children are different from adults in several 
important ways, they may be more vulnerable to some health and 
developmental risks. Since EPA was established in 1970, we have 
taken leadership in the Nation's efforts to protect children's 
health. We all know, of course, of our early actions that 
mandated the removal of lead from gasoline, which continues to 
represent a landmark achievement in protecting children's 
health. Blood lead levels of children born today are 
significantly lower than those born when EPA took action.
    In 1995 EPA established an Agency-wide policy to ensure 
that unique vulnerabilities of children be explicitly and 
consistently considered in our risk assessments, risk 
characterizations, and our health standards. In 1996, the 
national agenda to protect children's health from environmental 
threats expanded the Agency's activities to specifically 
address risks for children.
    As previously mentioned, in 1997 the President signed an 
Executive Order, protection of children's health from 
environmental health risks and safety risks. The order requires 
all Federal agencies to address a high priority to addressing 
health and safety risks to children.
    EPA established the Office of Children's Health Protection 
in 1997 to support the agency as it embraced our 1996 agenda 
and the 1997 Executive Order. The mission of EPA's children's 
office is to make the health protection of children a 
fundamental goal of public health and environmental protection 
in the United States.
    The office ensures that risks to children are considered in 
agency activities, standards, and regulations. It also works to 
advance science relating to children's exposure and risk.
    To continually inform Agency initiatives related to 
children's health, EPA established the Children's Health 
Protection Advisory Committee in 1997. Through this Committee, 
leading researchers, academics, health care providers, NGO's, 
industry representatives, as well as representatives of State 
and local governments, regularly advise EPA on regulations, 
research, and communication's that are related to children's 
health.
    EPA has worked to ensure that standards and regulations 
consider the potential risks that children face from exposure 
to chemicals and toxic substances.
    I would like to highlight some examples of how the 
regulatory process has addressed children's health concerns.
    You know that the Clean Air Act requires EPA to set 
national ambient air quality standards for widespread 
pollutants from diverse sources that are considered harmful to 
public health and the environment. Primary NOX standards are 
designed to protect the health of sensitive populations, 
including children. These ambient air quality standards are an 
important mechanism for reducing children's exposure. For 
example, in September 2006 EPA issued the Agency's most 
protective set of NOX ever for particular matter.
    Our estimates indicate that attaining the new 24-hour PM 
2.5 standards will result in the following improvements in 
children's health each year compared to 2006: we predict there 
will be 1,200 fewer emergency room visits for asthma, 7,300 
fewer cases of acute bronchitis, 97,000 fewer cases of upper 
and lower respiratory symptoms, and 51,000 fewer cases of 
aggravated asthma. And the NAAQS for lead, ozone, nitrogen, and 
sulfur oxides also provide important benefits for children's 
health.
    In addition, under the Safe Drinking Water Act Amendments 
of 1996 the EPA must consider segments of the population at 
risk from drinking water contaminants. In setting standards for 
drinking water, EPA conducts detailed analyses of available 
data to determine children's health risk.
    Protecting children from potential effects of pesticides is 
an important aspect of EPA's pesticide program.
    The Food Quality Protection Act requires EPA to place 
particular interest in children when making regulatory 
decisions about pesticides.
    Risk assessments include evaluations for children in 
various age groups, since children's feeding and activity 
patterns change as they grow up.
    In another area of critical important to children's health, 
EPA recently published its lead renovation and remodeling and 
painting rule. This rule is designed to minimize children's 
lead exposure as a result of renovation activities by ensuring 
that safe occupational practices are used by renovaters and 
that workers are properly trained.
    EPA also conducts and facilitates research that provides 
essential information on children's health. In addition to 
intramural research in our Office of Research and Development, 
EPA's National Center for Environmental Research actively 
supports extramural research on topics related to children's 
environmental health through its Science to Achieve Results, or 
STAR, program.
    From a read of our 2007 report, A Decade of Children's 
Environmental Health Research, you can see impressive results--
--
    Senator Boxer. Mr. Gray, can you just sum up, because you 
have gone a minute over and we have a lot of questions. If you 
could sum up it would be great.
    Mr. Gray. We have an impressive portfolio of 100 projects 
that have resulted in more than 1,000 peer review publications.
    In addition, we have guidance on conduct of risk assessment 
and the ways in which children's health should be considered, 
guidance on exposure assessment and the ways in which 
children's health can be considered, all of which are developed 
through a rigorous Agency-driven process, go through a complete 
peer review, and are available to those who are interested.
    So thank you, Chairman Boxer, members of the Committee. I 
appreciate your dedication to children's health and your 
interest in EPA's efforts. EPA embraces its mission to protect 
the environment and public health, and we take extra care to 
protect those who may be most vulnerable, especially children.
    I look forward to answering any questions that you may 
have. Thank you.
    [The prepared statement of Mr. Gray follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you.
    Mr. Stephenson, welcome.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
       AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Welcome. Madam Chairman, members of the 
Committee, I am pleased to be here today to discuss our work of 
evaluating EPA's efforts to protect children from environmental 
health risks. Many of the Nation's 74 million children are 
exposed to hazardous chemicals daily. In 2006, for example, 55 
percent of children lived in counties that exceeded one or more 
of the six principal air pollutants, two of which, ozone and 
particulate matter, are known to cause respiratory diseases 
such as asthma.
    Asthma is the third most common cause of hospitalizations 
among children, resulting in 3.2 billion for treatment and 14 
million lost days of school annually.
    In April, 1997, as you have mentioned, the President signed 
Executive Order 13045 establishing an inter-agency task force 
to ensure that Federal regulations recognize, explicitly 
account for health and safety risks to children. The 
President's task force was co-chaired by the Administrator of 
EPA and the Secretary of Health and Human Services at the time 
and included the heads of at least 14 other departments, 
agencies, commissions, and councils.
    Also in 1997 EPA established the Children's Health 
Protection Advisory Committee to advise the Agency on 
regulations, guidance, and policy relevant to children's 
health.
    My testimony is based on ongoing work for this Committee. 
We are reporting today on how well EPA is using the Advisory 
Committee and responding to its recommendations.
    In summary, we found that, although the Advisory Committee 
is a FACA chartered specifically to ensure that the Agency's 
regulations, guidance, and policies address the 
disproportionate risks to children that result from 
environmental contaminants, EPA is not effectively using its 
expertise. The Advisory Committee met more than thirty times 
over the last 10 years and discussed a variety of environmental 
health issues with dozens of officials from EPA program 
offices; however, we identified just seven instances where EPA 
program offices actually asked the Committee's advice. Rather, 
in the absence of such requests, the Advisory Committee, 
itself, has taken the initiative to write more than 70 letters 
to the Administrator since 1998 offering recommendations on a 
wide variety of children's environmental health concerns.
    I have a chart here that depicts this over 600 
recommendations categorized in terms of the subject they wrote 
on. It was very difficult to get these recommendations gleaned 
out of these 70 letters because it is not generally tracked by 
EPA.
    In addition, in April 2007, to mark its tenth anniversary, 
the Advisory Committee wrote a letter to the EPA Administrator 
highlighting progress, but also identifying seven key areas of 
concern. That is depicted in this next chart. They include the 
need for EPA to eliminate environmental health disparities 
among low-income and minority children, the need to strengthen 
the national approach to regulating toxic chemicals, and the 
need to provide the necessary leadership and infrastructure to 
protect children's health.
    Our preliminary analysis shows that in about half the cases 
EPA's response to the Advisory Committee's 70 letters was non-
responsive. We also found that the Administrator has not yet 
honored the commitment he made in his June 2007 letter for EPA 
program offices to review the recommendations in the Advisory 
Committee's letter. It has been over a year since he made this 
commitment, but this first step has not yet been completed.
    While we are still in the process of evaluating EPA's 
response to all of the over 600 Advisory Committee 
recommendations, we have examined in detail recommendations 
pertaining to three air quality standards: particulate matter, 
ozone, and lead. We selected these air standards because of 
their affects on the rising rates of asthma, one of the most 
critical children's health concerns in the U.S.
    We found that the Advisory Committee has written seven 
letters containing 27 recommendations on these air pollutants, 
alone because scientific evidence suggests that standards were 
not sufficiently protective of children's health. However, in 
analyzing EPA's response to these recommendations, we found 
that EPA either did not acknowledge, was non-committal, 
rejected, or offered only to consider them along with comments 
from the general public.
    As shown in my last chart, EPA ultimately set the standards 
for these air toxins at less stringent levels than those 
recommended by not only the Children's Advisory Committee, but 
its own Clean Air Advisory Committee, as well.
    Finally, nearly every children's health expert we have 
spoken to in the course of our work has suggested the need for 
an inter-agency group to provide important high-level 
leadership and coordination on children's environmental health 
issues. The President's Task Force on Environmental Health 
Risks and Safety Risks to Children had been providing this 
leadership from 1997 until it was allowed to expire in April 
2005. The Task Force championed several important initiatives 
such as the National Children's Study and the healthy schools 
environmental assessment tool and developed national strategies 
to coordinate Federal programs for asthma, developmental 
disorders, cancer, and unintentional injuries, four major 
environmental health threats to children that it identified.
    In conclusion, we believe that EPA should take steps to 
reinvigorate and more proactively use the expertise of its 
Advisory Committee and its Office of Children's Health, and it 
should honor the Administrator's commitment to act on the 
Advisory Committee's numerous recommendations.
    Madam Chairman, that concludes my statement. I will be 
happy to take questions.
    [The prepared statement of Mr. Stephenson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much.
    Here is what we are going to do. First, we need to just 
take down that chart, please, because people can't see Senator 
Clinton for her statement. If you could put it right in front 
of the table so we can look at it, it would be very helpful.
    Here is what we are going to do. As I promised Senator 
Clinton, I am going to give her 5 minutes for an opening, and I 
am going to give up my questioning time to her. She and I 
worked together on this GAO report, and I will come last on my 
questions, so we will go to Senator Clinton for 10 minutes, and 
Senator Lautenberg, Senator Whitehouse.
    Please proceed.

          OPENING STATEMENT OF HON. HILLARY CLINTON, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you so much, Chairman Boxer, and 
thank you for your lifetime commitment, really, to the health 
and well-being of our children.
    This is such an important hearing, because obviously many 
of us believe strongly that there are direct links between 
environmental contaminants, pollution, stresses, and our 
children's health. We thought that we were on the right track 
in our Country and our Government in focusing on these 
concerns, and we learn, unfortunately, but not unexpectedly, 
that the Bush administration has basically undermined much of 
what we were trying to accomplish.
    Now, for me this is a very significant finding that the GAO 
has presented in its report. It reveals a systematic failure to 
prioritize children's health in the Bush administration. The 
specifics of this are, unfortunately, clear for all to see.
    The Bush administration disbanded a critical inter-agency 
task force in our Government that was focused on bringing 
agencies together to protect children's health against threats 
in the environment. While disbanding the group that spearheaded 
the major children's health reforms of the past decade, it 
ignored its own panel of experts, disregarded recommendations 
to ensure our children have access to clean air and water, safe 
homes, safe schools, and healthy food.
    It is time to sound the alarm. This cannot be permitted to 
continue.
    More than 40 years ago, Rachel Carson wrote, ``For the 
first time in the history of the world, every human being is 
now subjected to contact with dangerous chemicals from the 
moment of conception until death.'' Environmental contamination 
and pollution presents an insidious threat to children's 
health, a silent but ever-present factor in childhood asthma, 
cancer rates, and other serious health problems.
    Cancer rates, asthma, people think, Well, what does that 
have to do with the environment? Well, asthma rates have more 
than doubled since 1985. The CDC estimates that more than 
300,000 children currently have elevated levels of lead in 
their blood. We know that children living near very obvious 
sites of pollution have other serious diseases, including 
cancer, in a higher than expected rate. We cannot allow this to 
continue.
    In the Clinton administration more than a decade ago we 
issued an Executive Order on the protection of children from 
environmental health risks and safety risks. EPA established 
the Office of Children's Health Protection and created the 
Children's Health Advisory Committee. That was an important set 
of decisions and represented a milestone in making sure we did 
not ignore the scientific evidence and linkage between 
environmental exposure and children's health, adverse effects.
    These actions helped make schools safer for kids and helped 
reduce pesticide exposure and focused attention on the growing 
asthma epidemic and expanded lead poisoning prevention. The 
task force established under the Executive Order was 
instrumental in the creation of the landmark National 
Children's Study, a long-term effort that will help us better 
understand the links between chronic disease and the 
environment.
    So it defies common sense that the Bush administration 
quietly disbanded the task force in 2005, undercut the 
Children's Health Protection Office, and failed to follow 
through ton the Clinton administration's efforts on children's 
health.
    I mean, this would be laughable if it weren't so serious. 
In 2002 EPA made the Office of Children's Health Protection 
responsible for the aging initiative, focused on issues facing 
seniors, equally important but undermining the mission of that 
office, and doing so despite recommendations to the contrary by 
the Children's Health Protection Advisory Committee.
    Later, the Office of Children's Health, having incorporated 
aging issues, was combined with the Office of Environmental 
Education. Until recently, the Administration refused to 
appoint anyone to actually be the director of the office, 
essentially and purposefully leaving it rudderless.
    So it is time we restored the mission of this office, the 
function of the inter-agency task force, and nation spirit of 
the orders issued by the Clinton administration.
    Today I will be introducing the Children's Environmental 
Health and Safety Risk Reduction Act, which will once again 
ensure that we have the entire Federal Government working 
together to protect the health of our children. The Children's 
Health Protection Advisory Committee made seven recommendations 
for action EPA should take to recommit the Agency to children's 
health. I echoed those findings in a letter to Administrator 
Johnson, asking him to take action. He responded that he would 
ask the Office of Children's Health to review the 
recommendations. But, according to the GAO, no progress has 
been made more than a year after the initial promise of a 
review by Administrator Johnson. It is no wonder he wouldn't 
come to testify today.
    Ten years after the landmark executive order, this is the 
State of children's health protection at the EPA: no 
leadership, no resources, no initiative, no real mission. It is 
a disaster and it is a disgrace, and we intend to fix it.
    I hope that today's hearing will galvanize advocates, 
parents, as well as the EPA, itself, to take action. I look 
forward to continuing to work with our chairman and other 
colleagues to try to push forward an agenda that will protect 
our children.
    [The prepared statement of Senator Clinton follows:]

        Statement of Hon. Hillary Rodham Clinton, U.S. Senator 
                       from the State of New York

    Thank you so much, Chairman Boxer, and thank you for your 
lifetime commitment, really, to the health and well-being of 
our children.
    This is such an important hearing because obviously many of 
us believe strongly that there are direct links between 
environmental contaminants, pollution, stresses, and our 
children's health. And we thought we were on the right track in 
our country and our government in focusing on these concerns, 
and we learn unfortunately but not unexpectedly that the Bush 
administration has basically undermined much of what we were 
trying to accomplish.
    Now for me, this is a very significant finding that the GAO 
has presented in its report. It reveals a systematic failure to 
prioritize children's health in the Bush administration. And 
the specifics of this are unfortunately clear for all to see. 
The Bush administration disbanded a critical interagency Task 
Force in our government that was focused on bringing agencies 
together to protect children's health against threats in the 
environment. While disbanding the group that spearheaded the 
major children's health reforms of the past decade, it ignored 
its own panel of experts, disregarded recommendations to ensure 
our children have access to clean air and water, safe homes, 
safe schools, and healthy food.
    It is time to sound the alarm. This cannot be permitted to 
continue. More than 40 years ago, Rachel Carson wrote, ``For 
the first time in the history of the world, every human being 
is now subjected to contact with dangerous chemicals from the 
moment of conception until death.'' Environmental contamination 
and pollution presents an insidious threat to children's 
health--a silent, but ever present factor in childhood asthma, 
cancer rates, and other serious health problems.
    Cancer rates, asthma, people think, ``Well what does this 
have to do with the environment?'' Well, asthma rates have more 
than doubled since 1985. The CDC estimates that more than 
300,000 children currently have elevated levels of lead in 
their blood. We know that children living near very obvious 
sites of pollution have other serious diseases, including 
cancer, at a higher than expected rate.
    We cannot allow this to continue. In the Clinton 
administration, more than a decade ago, we issued an Executive 
Order on the protection of children from environmental health 
risks and safety risks. The EPA established the office of 
Children's Health Protection and created the Children's Health 
[Protection] Advisory Committee. That was an important set of 
decisions and represented a milestone in making sure we did not 
ignore the scientific evidence and linkage between 
environmental exposure and children's health adverse effects.
    These actions helped make schools safer for kids and helped 
reduce pesticide exposure and focused attention on the growing 
asthma epidemic and expanded lead poisoning prevention. The 
Task Force established under the Executive Order was 
instrumental in the creation of the landmark National 
Children's Study, a long-term effort that will help us better 
understand the links between chronic disease and the 
environment.
    So it defies common sense that the Bush administration 
quietly disbanded the taskforce in 2005, undercut the 
Children's Health Protection Office, and failed to follow 
through on the Clinton administration's efforts on children's 
health. I mean, this would be laughable if it weren't so 
serious.
    In 2002, EPA made the Office of Children's Health 
Protection responsible for the Aging Initiative, focused on 
issues facing seniors--equally important, but undermining the 
mission of that office and doing so despite recommendations to 
the contrary by the Children's Health Protection Advisory 
Committee. Later the Office of Children's Health, having 
incorporating aging issues, was combined with the Office on 
Environmental Education. And until recently, the administration 
refused to appoint anyone to actually be the director of the 
office, essentially and purposefully leaving it rudderless.
    So it's time we restored the mission of this office, the 
function of the interagency Task Force, and the spirit of the 
orders issued by Clinton administration.
    Today I will be introducing the Children's Environmental 
Health and Safety Risk Reduction Act, which will once again 
ensure that we have the entire Federal Government working 
together to protect the health of our children.
    The Children's Health Protection Advisory Committee made 
seven recommendations for actions EPA should take to recommit 
the agency to children's health. I echoed those findings in a 
letter to Administrator Johnson, asking him to take action. He 
responded that he would ask the Office of Children's Health to 
review the recommendations. But according to the GAO, no 
progress had been made more than a year after the initial 
promise of a review by Administrator Johnson. It's no wonder he 
wouldn't come to testify today.
    Ten years after the landmark Executive Order, this is the 
State of children's health protection at the EPA: no 
leadership, no resources, no initiative, no real mission. It's 
a disaster and it's a disgrace, and we intend to fix it.
    I hope today's hearing will galvanize advocates, parents, 
as well as the EPA itself to take action, and I look forward to 
continuing to work with our Chairman and other colleagues to 
try to push forward an agenda that will protect our children.

    Senator Clinton. Now, there is so much to be talked about 
here that it is almost hard to know where to start, but let me 
begin, Mr. Stephenson. Your testimony notes that if the inter-
agency task force created by President Clinton's Executive 
Order 13045 were still in existence, it could have helped 
address the multiple toy recalls last year. Would you please 
elaborate on the importance of that task force and the ways 
that it contributes to children's health protection.
    Mr. Stephenson. That is, of course, hypothetical, but 
nevertheless, without the inter-agency task force you don't 
have Housing and Urban Development working with the EPA. You 
simply don't have a high-level infrastructure with which to 
coordinate Federal programs. Even in the EPA's annual operating 
plan for Fiscal Year 2009 it recognizes the importance of the 
task force and its contribution to removing lead. That was just 
in this year's plan, even though the task force was disbanded 
over 3 years ago.
    Senator Clinton. Dr. Gray, can you explain why the 
President chose to disband the task force?
    Mr. Gray. Well, Senator, I think it is important to realize 
that there is high-level coordination in the Federal 
Government. It has been focused for the last several years, 
however, on the National Children's Study, which is an 
outgrowth of the task force.
    Senator Clinton. Well, isn't it true that in the 
President's budget of the last several years it was recommended 
to cut the funding for the National Children's Study?
    Mr. Gray. The funding for the National Children's Study has 
continued. There are recommendations for cuts, but that is an 
effort to make sure that we have just the resources that we 
need to do the highest priority work. That high-priority work 
comes from an inter-agency process that is co-chaired by the 
EPA, and it also involves an ongoing consortium that 
coordinates between all of the Federal agencies, including 
Housing and Urban Development, who are interested in children's 
affairs. So there is coordination.
    Senator Clinton. Well, it is somewhat confusing to follow 
your testimony, because the fact is that President Bush had 
sought to zero out the National Children's Study in his 
budgets, and it is interesting that your testimony touts 
programs spearheaded by the task force such as the National 
Children's Study, so it is very difficult to understand exactly 
what the priorities of this Administration are when it comes to 
children's health.
    I don't hold you responsible. You are here representing the 
EPA, but, unfortunately, the bottom line is that actions speak 
louder than words, and the efforts to zero out the funding, to 
disband the task force I think speaks volumes about what we can 
expect from this Administration, thankfully not for very much 
longer.
    Dr. Gray, in June 2007 Administrator Johnson promised to 
implement an inter-agency review of the Children's Health 
Protection Advisory Committee regarding a renewed focus on 
children's health. In a letter I sent to him in October 2007 I 
asked for a time line. In December 2007 I was told that there 
were preliminary discussions and we would be hearing something 
soon. It has been roughly 10 months since that response. What 
progress has been made in reviewing these recommendations and 
what is a time line for the completion of that review?
    Mr. Gray. Well, thank you for an opportunity to make clear 
that, in fact, the Agency is working to understand and to 
consider those recommendations that came from the Children's 
Health Protection Advisory Committee. There have been 
conversations between at the time the acting head of the Office 
of Children's Health Protection, and a variety of the program 
offices. There are staff-level collaborations that are going 
on. There has been a change, as was mentioned. We have a 
permanent head for the Office of Children's Health Protection, 
and as that person has the opportunity to get settled and 
organize things, we will be moving forward.
    I can't give you a time line right now, but I would be 
happy to get back to you with a time line.
    Senator Clinton. Well, the time line is that nothing has 
happened.
    Just to followup quickly, Mr. Stephenson, what progress has 
EPA made in reviewing the recommendations of the tenth 
anniversary letter since December 2007?
    Mr. Stephenson. Really, none. There is a new director of 
the Children's Health Office. That is true. But under the 
acting director they had actually established task groups to 
work on the recommendations, and those were pretty much 
disbanded by the current director when she took office. I know 
she has held meetings with each of the program offices and so 
forth, but there has really been nothing concrete that has come 
out of that, to my knowledge.
    Senator Clinton. Thank you.
    Senator Boxer. Thank you so much, Senator Clinton.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Stephenson, in your testimony you highlight very 
clearly the fact that there has been virtually no response to 
many things that the Committee has recommended. Has EPA 
explained to your agency why they haven't implemented the 
Committee's recommendations or why they haven't? Do they 
acknowledge in any way receipt of letters or communication from 
your Agency that recommendations made are either being ignored, 
not understood? What do they say?
    Mr. Stephenson. One of the advantages of having an actual 
FACA Advisory Committee is that the Agency is required to 
respond in writing to each of the letters written to it by the 
Advisory Committee. They have done so, but what I was 
suggesting is that a quarter of the time no response was 
delivered. About a quarter of the time the response was a, 
Thank you very much for your interest. And, to be fair, half 
the time there was a detailed response.
    What is more alarming is that we had to work very, very 
hard to pull the recommendations out of these 70 letters to 
even determine that there were 600 recommendations. Nobody is 
tracking that. There is no rigor in what the Advisory Committee 
has recommended and what actions we might do. There is no 
proactive asking of the Advisory Committee, What do you think 
about this regulation? What do you think about that policy? It 
is all push; there is no pull.
    That is what we noticed. We just think they need to 
invigorate and use in a more concrete way the valuable input 
that they are getting from this 29-member scientific Advisory 
Committee.
    Senator Lautenberg. You are very kind to say re-invigorate. 
No response. How do you invigorate the no-response kind of 
thing? What does that say to you? Are they asleep over there? 
Do they think that your recommendations are useless? What about 
you got some responses here and there, and thank you very much, 
as you said, for your interest. What do they say? do you 
followup when there are letters sent, recommendations made, and 
you hear nothing?
    Mr. Stephenson. Well, the Office of Children's Health is 
assigned to the Office of the Administrator, and it is an 
Advisory Committee. Nevertheless, it exists because of the 
unique needs of children, and simply to say that we have 
improved this clean air program or we have improved this 
drinking water program for the general public is not good 
enough. The office exists for the explicit needs of children, 
and we just don't see it being used in that manner.
    Senator Lautenberg. So if you had to grade their report 
card, what kind of a grade would you give them for their 
attention to children's health needs, as described by your 
agency and by the Committee and your commentary?
    Mr. Stephenson. Probably an incomplete.
    Senator Lautenberg. Incomplete is like failure, right?
    Mr. Stephenson. You haven't asked.
    Senator Lautenberg. Yes. Recently the EPA put forward air 
quality standards that are less protective than what the 
Children's Health Advisory Panel [sic] called for. Is there any 
evidence that EPA even considered this recommendation or is it, 
as has happened so often in the past, ignored?
    Mr. Stephenson. I am sure they considered it, but, again, 
when you are looking at the Advisory Committee's contribution 
toward these air standards, they made, as we said, over 20 
specific recommendations concerned with the high level of these 
standards. The chart is right in front of you here that shows 
that ultimately where the standard was set is above not only 
the Children's Advisory Committee recommendation, but also the 
Clean Air Advisory Committee. So they consider them along with 
public comments like everyone else, but I am not sure that they 
took the science specifically attributable to children into 
account.
    Senator Lautenberg. Madam Chairman, thank you very much.
    One thing is obvious that we have learned here in this 
Committee, that the primary gesture that you get from EPA when 
questions of significance are put to them or recommendations 
made that it is kind of thumbing their nose. Forget about the 
Congress. I mean, we can take the insults. But the abuse of 
children's health is an unacceptable condition and we have got 
to make it change here.
    I thank you very much.
    Dr. Gray, I wouldn't want to be at your spot at the table 
right now.
    Thank you very much.
    Senator Boxer. Senator, you speak for me.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    The suggestion in Senator Lautenberg's question is that it 
actually matters to the leadership of EPA how well the 
decisions turn out for children. There isn't actually a very 
good case for that proposition. The proposition that is 
supported by the evidence is that EPA cares about how this 
works out for industry and for the big donors to the Bush White 
House. It is very hard to reconcile their decisions with any 
other motivation.
    I would like to focus particular on this ozone question 
that you looked at, Mr. Stephenson. As I understand it, the 
standard for ozone pollution had been set at 0.08 parts per 
million, and then the EPA's own clean air scientific advisory 
commission came back and said that is not safe. The safe range 
is between 0.07 and .06 parts per million, a range, .06 to .07. 
Then the Children's Health Advisory Committee chimed in on the 
Clean Air Advisory Committee, so now you have two scientific 
committees speaking, and the children's one says, Look, because 
the way you calculate the risk doesn't take into account the 
risk to children adequately, you should go to the low end of 
that range, and they recommended the 0.06.
    Mr. Stephenson. Correct.
    Senator Whitehouse. So the Administrator is faced with two 
recommendations: one, a range that is the safe range from .06 
to .07; within that a recommendation protective of children 
because of the specifics of the way this was done that said if 
you want to protect children you have got to go all the way to 
.006 [sic]. Straight out of the range, he sat, as your chart 
shows, a standard outside the safe range and quite distant from 
the range that had been recommended for children.
    Mr. Gray tells us that we take extra precaution to protect 
those who are most vulnerable to contaminants in the 
environment, especially children. Can you reconcile Mr. Gray's 
statement with what was decided in this particular case? And 
could you elaborate at all? Well, let me ask you that first and 
then I will go to my second question.
    Mr. Stephenson. Well, as with any rule or regulation you 
have to do a cost/benefit study and show the benefits, and you 
heard Dr. Gray talk about the benefits of this particular 
standard of .075. Just imagine how much greater the benefits 
would have been had they adopted the Children's Advisory 
Committee recommendations.
    We did not do a cost/benefit analysis to show how much more 
expensive that would have been to the polluting entities, but 
EPA does have to take that into consideration.
    These are small numbers we are talking about, .06 to .075, 
but percentage-wise that is huge.
    Senator Whitehouse. Yes. It is huge, and it matters a great 
deal to little lungs.
    The question that I have, you see this going on. You have a 
clean air scientific advisory committee that is appointed by 
EPA, itself, with the best scientists in the Country. You have 
a children's Health and Protection Committee that Mr. Gray here 
in his own testimony says is comprised of leading researchers, 
academics, health care providers, NGO's, industry 
representatives, and State and local government 
representatives. They get recommendations. They got 
recommendations specifically from the Children's Health Science 
Advisory Council. Then they ignore it.
    You have pointed out how the final standards over and over 
again fall outside the safe range and in favor of industry. Did 
you try to explore why it is that this is happening?
    Mr. Stephenson. No, not as part of this study. We haven't 
examined these specific clean air rules. We were more looking 
at just how EPA responded to specific recommendations from the 
Advisory Committee. We just pointed this out as an example of 
where the Advisory Committee had made very specific 
recommendations, 27 of them, in fact, and the ultimate result 
of those recommendations.
    Senator Whitehouse. Well, we can follow this up later, but 
I do think it is important outstanding understand, when 
Government goes off the rails like this, why, in part so that 
we can be more alert and not allow it to be repeated.
    I would suggest that it is a combination of a very 
significant industry investment in phony science and in phony 
doubt about science corresponding with an Agency that is 
captured by political interests and basically instructed to 
disregard its mission. When you have that instruction coming 
from the top and the phony science to work with, given that 
motivation at the bottom, you connect those two dots and you 
get these results.
    I think it is a matter of real concern and we will talk 
later on about maybe pursuing this and getting into the why 
question.
    I appreciate the time to question. Thank you, Chairman.
    Senator Boxer. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    If I could, Mr. Gray, when the EPA sets health standards, 
reference doses, what do you take into account in terms of 
maybe differential sensitivities when it comes to children and 
how you are trying to figure things out and what is safe and 
what is not?
    Mr. Gray. Well, the EPA always looks very closely at any 
potential adverse effects that a material might have, and those 
certainly include things that we might have concerns with 
children. We look at potential developmental effects, potential 
neurotoxic effects, and we consider those very, very seriously.
    Just to give a feel for how much this is done, in the 
Office of Pesticides, the Food Quality Protection Act told EPA 
to go back and look at the assessments that they had done of 
pesticides to consider the special sensitivity that children 
might have. To this point, with a terrific amount of effort, 
EPA has reviewed and re-assessed over 9,700 pesticide 
tolerances--that is, the levels that can be on food--to take 
into account things about children--their consumption patterns 
that might be different. As a father, I know that your kids 
don't always eat what you want them to eat; they eat what they 
eat, and we have to make sure that we keep track of their 
consumption patterns, and also potential increase of 
susceptibility because of developmental issues.
    So this is something that the Agency takes very, very 
seriously. We look at the science. We use a science-based 
approach to understand the right steps to take to prevent any 
harm to children.
    Senator Barrasso. So we looked at both existing chemicals 
and then potential new chemicals coming on the market? If we 
could talk about both of those separately, one is in terms of 
existing chemicals, what are the things you can do under the 
Toxic Substance Control Act to address the children's health 
concerns about existing chemicals. And then I want to ask a 
second question to followup in terms of new chemicals coming on 
the market.
    Mr. Gray. Well, for existing chemicals there are two things 
that we can point to. One is our VCCEP program that was 
launched in the late 1990's. This is the Voluntary Children's 
Chemical Evaluation Program. It was our attempt to learn how we 
can take in and develop special information about potential 
risks to children and to use that in our assessment process.
    This is something that we have worked hard on. This has 
been a volunteer program that has involved the development of a 
great deal of data.
    We have recently taken a look at that pilot to say what can 
we learn about the way we can get more information, that we can 
better use information to look at potential risks to children. 
We, in fact, have gone to our Children's Health Advisory 
Committee. We are going to them again in October with questions 
about this project. We are going to them very specifically. We 
are using them proactively to help us understand what we have 
learned from this process.
    We have also had public meetings on this where we have 
worked with a variety of stakeholders. Because of this, we are 
looking at modifications to the way that we are going to run 
this VCCEP program. That is very important.
    One of the modifications has to do with working through the 
program chemicals that we choose to evaluate. What we wanted to 
do there is to link it up with what we call our Champ program, 
our chemical assessment program that is committed to reviewing 
about 3,000 existing chemicals for their hazard and exposure 
information so that we can set the appropriate priorities.
    We want to use what we learn from that to set priorities 
for our children's efforts, as well. So we have efforts going 
on to look at those chemicals in a very, very careful way.
    Senator Barrasso. Are the IRIS health-based risk values 
applicable only to adults, or do you include children in that, 
too, when you go into all of the----
    Mr. Gray. That is another good question. Our IRIS program 
is the way in which we develop health values that are used by 
other parts of the Agency, by States, by localities, by folks 
around the world to assess risks. In the IRIS program we look 
very specifically at potential risks to children. In fact, you 
will see that there are places. We have a couple of our IRIS 
assessments out there now that use what we call in the Agency 
speak our age-dependent adjustment factors to those assessments 
that are there specifically to account for situations in which 
there might be greater-risk children. This is something that we 
take into account in those assessments, as well.
    Senator Barrasso. Thank you, Mr. Gray.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Assistant Director Gray, Director 
Stephenson, thank you very much for being here. I tell you my 
interest in this came out of what we have seen in our State 
where we had a little 4-year-old boy die when he swallowed a 
charm that was 99 percent lead. I know that is under the 
Consumer Product Safety Commission, but when we started looking 
at that from the Commerce Committee we found that the agency 
had been a shadow of its former self, that it was down on the 
job, and as a result these toxic products were allowed on our 
shores and in our stores.
    And then, getting ready for this hearing, we looked at what 
was going on in our State where we have seen more and more 
children with asthma, $3 billion in treatment, according to the 
Center for Disease Control; 14 million days of school lost per 
year. Minnesota children, 4,339 days hospitalized because of 
asthma. That is where my concern comes from.
    As I read what was going on with Director Stephenson talked 
about with nor responding to the Advisory Committee, it reminds 
me eerily of what we saw with the climate change issue, where 
recommendations were made by scientists and the only ones that 
could see the endangerment standard were a group of Senators in 
a back room. It is like the science doesn't exist. And I come 
from a State where we believe in science. We brought the world 
everything from the Post-It note to the pacemaker. But it seems 
as though the Administration continues to live, as Senator 
Clinton has so adeptly put it, in an evidence-free zone.
    So I want to talk a little bit about the evidence and how 
we can get the evidence into our Government again.
    One of the things that I got here was an article from the 
Milwaukee Journal Sentinel, Assistant Administrator, and it 
talks about this EPA voluntary children's chemical evaluation 
program, and this program was supposed to rely on companies to 
provide information about the dangers about the chemicals they 
produce. What is the status of that program?
    Mr. Gray. Thank you, Senator.
    As I just mentioned, the VCCEP program was our attempt. It 
was started in the late 1990's. it was an attempt to learn how 
we can develop the information that we need to help address 
potential sensitivities of children.
    Senator Klobuchar. And is there still funding for that 
program?
    Mr. Gray. Yes, there is. In fact, the program has recently 
undergone a number of reviews to help us understand this. We 
have gotten reviews from our Children's Health Protection 
Advisory Committee. We have talked to other stakeholders. We 
have held public meetings to help us understand what we have 
learned and what we might do to make this even more effective.
    Senator Klobuchar. And when is the last time that committee 
met?
    Mr. Gray. It is not really a committee; it is an ongoing 
process that is involved with getting data together and 
bringing it in. We do have a meeting planned. We had a public 
meeting in July, and, in fact, in October we are going to our 
Children's Health Advisory Committee for their advice on what 
we should do with this program, as well.
    Senator Klobuchar. But is it true the Committee hasn't met 
in nearly a year?
    Mr. Gray. I will have to get back to you. I don't quite 
understand.
    Senator Klobuchar. You just said that it was a thriving 
committee and that there was funding, and it appears to me, 
according to this article, it hasn't met. Key members of the 
program can't even say if it is alive.
    Chairman, could I put this into the record, the Milwaukee 
Journal article.
    Senator Boxer. Without objection, yes.
    Senator Klobuchar. March 29, 2008.
    [The referenced information was not received at time of 
print.]
    Senator Klobuchar. Then I just had a few questions of you, 
Mr. Stephenson. You talked about how these 70 letters come in 
from the advisory group to the EPA, and you can only think of 
three instances where there was some kind of a response. Could 
you explain those to me and what happened with the information 
from the letters to the Administrator as they were 
recommendations regarding children's health?
    Mr. Stephenson. No. This is over a 10-year period. We said 
there were seven instances where we could identify where the 
EPA program offices actually came to the Advisory Committee to 
ask them for input or questions. Nevertheless, the Children's 
Health Protection Advisory Committee wrote 70 letters over 
those 10 years. We worked very hard to pull 600-plus 
recommendations out of those, and we are in the process of 
analyzing EPA's response to those. The furthest we have got 
along is for these NAP standards that you see on the chart in 
front of me here.
    Senator Klobuchar. And you had examples of how the EPA has 
disregarded, rejected, or ignored recommendations to protect 
the health and well-being of our children? Do you know how many 
children we are talking about there?
    Senator Klobuchar. No. We said that in reference to these 
NAP standards, that we looked at the 27 recommendations from 
the Advisory Committee specifically concerning those, and the 
EPA response was kind of non-responsive to those particular 
standards.
    Senator Klobuchar. This last thing I wanted to mention for 
future use is in Minnesota because of our frustration with what 
is going on. Our citizens have taken matters into their own 
hands, and there is a group called Health Legacy, which is a 
broad public health coalition of 29 members of health 
professionals, health-affected groups, environmental groups, 
faith communities, and parent groups. They have actually taken 
on the job of educating people in their community. I think it 
is worth looking into this, but obviously I think it would be 
better to do on the Federal level.
    Thank you very much.
    Senator Boxer. Thank you.
    I will conclude, because I deferred my questions until the 
end.
    Mr. Gray, why did Mr. Johnson refuse to come to this 
hearing?
    Mr. Gray. He was not available. I do not know any other 
details.
    Senator Boxer. When will he be available to come before 
this Committee?
    Mr. Gray. We can get back to you for that.
    Senator Boxer. You will get back to me? Will you get back 
to me today? We have been trying to get Mr. Johnson here since 
March. He is violating a promise and a pledge he has made to 
this Committee. Will you please tell him that we want an answer 
and we want to see him up here.
    I will come back in a lame duck session. He has got to come 
before this Committee. Will you please relay that to him? So 
you don't know why he couldn't make it? Just couldn't make it.
    Do you know if Mr. Johnson is planning foreign travel 
between now and the end of his term?
    Mr. Gray. I am sorry, I don't know his schedule that far in 
advance. We have a process where we can answer those questions.
    Senator Boxer. Do you know if anyone is planning foreign 
travel? I am not asking you when, I am just asking does he plan 
foreign travel between now and the end of his term?
    Mr. Gray. I just don't know.
    Senator Boxer. You don't know. OK. But you will please, if 
you would, find out for me if he is planning foreign travel, 
because I will tell you right now our kids are in trouble. 
There are lots of problems out there. The GAO has just done a 
stupendous job and you say you are proud of your work there 
with children, and yet they said, ``EPA has largely disregarded 
key recommendations from its Children's Health Protection 
Advisory Committee, particularly several recent letters 
advising EPA on proposed revisions to the clean air 
standards.''
    Now, air pollution is a serious threat to public health 
across the Country, including tens of millions of children who 
live in areas who don't meet Federal air quality standards. 
Don't the families and children in our Country deserve better 
than this?
    Mr. Gray. Well, Senator, I think it is very clear that we 
do value the advice that we get from our Children's Health 
Advisory Committee, and there are numerous examples of 
situations in which we have made real progress, made real 
changes in programs because of their advice, where we have 
taken our smart growth programs and focused them on children, 
where----
    Senator Boxer. Well, why did GAO give you such a thumbs 
down? There is no equivocation. They don't have any dog in the 
fight. They are just taking a look. If you are doing such a 
great job, why don't they know about it?
    Also, if children are such a priority, why is it that the 
Administrator failed to re-establish the Children's Health 
Protection Advisory Committee, the task force? Why was that 
allowed to expire, the Children's Environmental Health Risks 
and Safety Risks, that task force expired in 2005. If children 
are so important, why did the Administrator let that expire?
    Well, let me ask Mr. Stephenson, since you have lost your 
ability to answer these questions.
    Based on your review, do you have any information that 
indicates that task force that was allowed to expire was not 
being effective?
    Mr. Stephenson. No. To the contrary. It was initially set 
up under President Clinton for 4 years. It was re-established 
for 2 years in 2001 and 2003 by President Bush and was simply 
not extended after 2005. It made very valuable contributions. 
It exhibited leadership. It wrote strategic plans, which now 
have no one to implement them. We do see a need for an inter-
agency task force.
    I am sure that agencies talk all the time, but the 
discipline and rigor that a task force gives to a subject like 
this is very important, we think. And it is even recognized, as 
I mentioned, in EPA's own Fiscal Year 2009 operating plan. They 
give credit to that Presidential task force for its progress on 
lead. That is 3 years after it expired.
    Senator Boxer. So, Mr. Gray, just spare me all your words 
that just are not true. I am sorry. Two-and-a-half years ago on 
March 8, 2006, EPA's independent children's health advisors 
found that EPA's cleanup levels for perchlorate ``is not 
protective of children.'' They didn't mince words. They 
recommended that it be substantially strengthened. EPA still 
has not acted on that recommendation.
    How can you justify the Agency's failure to set a cleanup 
standard for this toxic chemical that, by the way, is present 
in more than 40 of our States? How can you justify the Agency's 
failure to set a clean-up standard for this chemical found in 
the water of millions of children, a standard that considers 
the vulnerability, body weight, and exposure patterns of 
infants and young children? Give me your rationale for that one 
if you love children so much in your work.
    Mr. Gray. I do love children very much.
    Senator Boxer. I know you do. I know.
    Mr. Gray. I have two of my own.
    Senator Boxer. I don't question your private life; I am 
questioning your work.
    Mr. Gray. I think you will be happy to know that we are 
working very hard on perchlorate. We have developed and had new 
data from the Food and Drug Administration that helps us 
understand much more about children's routes of exposure. We 
have done extensive physiologically based pharmacokinetics 
modeling to help us understand the potential vulnerabilities of 
children. Perchlorate and children is an issue we take very 
seriously.
    Senator Boxer. Well, Mr. Grumbles, just so you know, your 
own Mr. Grumbles sat here in your chair and told us he doubted 
there would even be a standard for perchlorate, Mr. Stephenson.
    Mr. Stephenson. I was just going to mention that you will 
recall we also did some work on the integrated risk information 
system, which is scientific assessment of chemicals, and we 
used perchlorate as one of our poster children for being stuck 
in the assessment process for over a decade. So until you do 
that scientific assessment, it is a forerunner to any standard 
or regulation. Dr. Gray is correct. They are doing a lot of 
things on perchlorate. But we still haven't concluded the basic 
scientific assessment needed to move forward on a regulation or 
a standard.
    Senator Boxer. And Mr. Grumbles practically told me they 
weren't going to have a standard, practically sat there and 
said it. And the time has been wasted.
    I have to say with Senator Clinton here, we have gone 
backward at a rapid pace since the Clinton years. That is not 
what America does. In America we make life better for our 
people. We use the tools we have. But when you have special 
interests sitting at the table you can talk to me about 
science. Of course that is what we want. But if the people who 
are translating the science have a special interest in it, 
nothing good can come of it.
    I can only speak for my State. We are setting a standard 
for perchlorate. We are not standing around waiting for you, 
because our kids are worth a lot to us. I just think this has 
been a very sad, sad moment for this Committee to sit here and 
hear this.
    I just want to say, Mr. Stephenson, thank you for this. 
Senator Clinton and I are so pleased, because when you did this 
work you didn't equivocate. You just said this is where it 
comes down. We are just simply not doing the right thing for 
our children. That is clear.
    We will call on the next panel.
    We want to welcome our next panel. We ask you to take your 
seats as quickly as possible because the clock does tick around 
here and we have got to move forward.
    First we are going to hear from Susan West Marmagas, 
Director of Health Programs, Commonweal, and former member of 
EPA's Children's Health Protection Advisory Committee, to be 
followed by Dr. Leo Trasande, Co-Director, Mount Sinai's Center 
for Children's Health and the Environment, and Dr. Robert 
Brent, Distinguished Professor of Pediatrics at duPont Hospital 
for Children.
    We will call on Ms. Marmagas first.

STATEMENT OF SUSAN WEST MARMAGAS, DIRECTOR OF HEALTH PROGRAMS, 
                           COMMONWEAL

    Ms. Marmagas. Thank you very much.
    Senator Boxer. Try to keep it to 5 minutes.
    Ms. Marmagas. Thank you very much.
    Dear Madam Chair and members of the Committee, good 
morning. It is my honor to speak before you today about the 
importance of children's health and the environment and the 
track record at the U.S. Environmental Protection Agency to 
address this vital issue.
    My name is Susan West Marmagas and I am the Director of 
Health Programs with Commonweal.
    Today I am speaking as a former member of, but not 
representing, the Children's Health Protection Advisory 
Committee, a Federal advisory committee that advises the 
Administrator of the Environmental Protection Agency by 
offering scientific review, guidance, and technical assistance 
on children's environmental health.
    As defined by EPA, the CHPAC is ``a body of researchers, 
academicians, health care providers, environmentalists, 
children's advocates, professionals, Government employees, and 
members of the public who advise EPA on regulations, research, 
and communications issues relevant to children.''
    The CHPAC is comprised of a broad swath of children's 
health experts, from a range of perspectives, who reach all 
decisions by consensus. Every member has been appointed or 
reappointed by this Administration, myself included. I served 
on the Committee from 2001 to 2007, during which time we 
brought many issues to the Agency.
    Today I will demonstrate a pattern of neglect by EPA 
leadership in the last years to address significant health 
threats to our Nation's children. I will briefly comment on the 
weakened stature of the CHPAC, offer three specific examples 
where EPA leadership did not heed our advice, discuss the 
steady decline of EPA leadership support within the Agency on 
this issue, and conclude with brief comments on two timely 
policy issues.
    First, the use of the CHPAC by the Administrator of EPA has 
changed considerably over the last several years. At its 
inception, the Committee was seen as the go-to body of experts 
on children's environmental health for EPA, and the 
Administrator and key offices came to the Committee for review, 
comment, and advice on critical policy, regulatory, and 
scientific issues. Many of these issues were well received by 
the Agency, and many incorporated into Agency decisionmaking.
    Over the last several years, however, the Committee has 
been seen less by EPA leadership as a critical advisory body 
and more solely as a public commenter. This has not stopped the 
CHPAC from seeking out critical issues, looking at the science, 
and making recommendations to EPA. We have looked at such 
issues as the national ambient air quality standards for ozone, 
particulate matter and lead; mercury; perchlorate; and other 
issues. However, they have increasingly ignored the 
recommendations of this Committee.
    I would like to just briefly talk about three issues. The 
first is the Clean Air Mercury Rule. This was an issue that the 
CHPAC took up in 2004 and wrote not one but four letters to the 
Agency. We wrote four letters because our first three letters 
were ignored, and we continued to talk about the scientific 
issues and the importance of addressing this issue.
    Even after these three additional letters to the 
Administrator, the Agency continued to downplay and ignore the 
significant threat of mercury to children's health, even in the 
face of persistent evidence-based concerns on this issue.
    The second is the National Ambient Air Quality Standards. 
We wrote letters on particulate matter, ozone, and lead, laying 
out the scientific basis for protecting children, and we also 
specifically followed the recommendations of the Clean Air 
Science Advisory Committee. However, all of these 
recommendations were ignored by the Agency and they did not set 
the standard that our advisory committee recommended.
    Third, perchlorate, which has also come up in this hearing 
today. The main health risk of perchlorate is its effect on 
brain function, namely through the impact of perchlorate on the 
thyroid.
    In 2006 we wrote a letter with regards to the EPA 
preliminary remediation goal and we argued then that it was not 
sufficiently protective of children, most notably infants and 
breast-feeding infants. However, our extensive input has not 
been taken up by the Agency. Since that time, there is even 
additional study and analysis, especially from the Centers for 
Disease Control, which shows that nursing infants are at 
particular risk.
    I now feel that it is important to take both our 
recommendations and this new science in considering this new 
standard.
    Finally, I would like to just talk briefly about the 
decrease of leadership within the Agency. I think this has been 
addressed already by the GAO report. There has been no 
permanent director of the Office of Children's Environmental 
Health until very recently. We actually as a committee wrote 
comment letters to the Agency specifically saying they needed a 
director, they should not be adding aging and environmental 
education to the list, and they should add resources to this 
office. They have moved staff around to handle these three 
issues and they have also not increased the budget to address 
them.
    Finally, in my last second, I would just like to comment 
that there are two policy issues that are outside my role as 
the CHPAC, but I think are important, and one is the kids Safe 
Chemical Act. We found as a committee that it was challenging 
to get EPA to do what it needed to do to protect children 
because the Toxic Substances Control Act is not sufficient and 
does not effectively protect children, and the Kid-Safe 
Chemical Act would address a number of the issues and put 
children at the center of regulatory decisionmaking.
    The last comment I will make is on the observational study 
of children. As we know, the cheers study in 2005 did not 
follow the ethical standards that we have as a Nation. It was 
withdrawn; however, what has been currently proposed doesn't go 
far enough to address the recommendations of the Senate or has 
not addressed the issues that have been brought up in the 
courts. I would argue that until those issues get addressed it 
is prudent for this Agency to hold back on observational 
studies. They have canceled RFA, but I think it is important 
that they really address these issues thoroughly before they 
move forward with an observational study on children.
    With that, I conclude my remarks. Thank you very much.
    [The prepared statement of Ms. Marmagas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much. That really was 
helpful.
    Dr. Trasande, welcome.

      STATEMENT OF LEO TRASANDE, CO-DIRECTOR, CHILDREN'S 
    ENVIRONMENTAL HEALTH CENTER, MOUNT SINAI MEDICAL CENTER

    Dr. Trasande. Good morning, Madam Chairwoman and members of 
the Committee. I am Dr. Leo Trasande. I am a pediatrician and 
co-direct the Children's Environmental Health Center at the 
Mount Sinai School of Medicine, the Nation's first academic 
policy center devoted to the protection of children against 
environmental threats to health.
    Children are uniquely vulnerable to many of the 90,000 
chemicals that are released into the environment every day. 
Pound for pound, they eat more food, they drink more water, and 
breathe more air than adults, so they take proportionately more 
of the toxins into their little bodies.
    They also do not metabolize, detoxify, and excrete 
chemicals in the same way as adults; thus, the chemicals can 
reside longer in children's bloodstreams and cause more damage.
    A third reason is that children are undergoing rapid growth 
and development, and those very complex developmental processes 
are easily disrupted.
    Over the past 30 years chronic diseases of environmental 
origin have become epidemic in American children. These include 
asthma, birth defects, brain cancer, developmental 
disabilities, obesity, pre-term birth, leukemia, and testicular 
cancer. These rapidly rising rates of chronic disease threaten 
the health of our children and the future security of our 
Nation. It may create a situation that has not been witnessed 
since the Great Depression in which our current generation of 
children may be the first to enjoy a shorter life span than the 
generation before them.
    Evidence is increasing that many environmental chemicals 
contribute to the causation of these diseases. Lead, mercury, 
PBCs, and certain pesticides have been shown to cause brain 
damage and to contribute to learning disabilities and 
disruption of children's behavior. Benzene, 1,3-butadiene, and 
pesticides have been etiologically associated with childhood 
malignancies. Ambient air pollutants also have been shown to 
increase incidence of asthma and to trigger asthmatic attacks.
    These diseases of environmental origin are also extremely 
costly to our economy. Four of the leading diseases of 
environmental origin in American children, lead poisoning, 
asthma, developmental disabilities, and childhood cancer have 
been found to cost our Nation $54.9 billion annually. These 
additional costs are disproportionately borne by the American 
taxpayer, and thus the reduction of unnecessary toxic exposure 
to environmental chemicals can be an effective and wise 
investment in our children's health.
    Federal regulation of environmental chemicals has proven 
successful in the reduction of childhood disease and 
disability. The elimination of lead from gasoline in the U.S. 
resulted in IQs among pre-school aged children in the 1990's 
that were 2.4 to 2.7 points higher than they would have been if 
those children had a distribution of blood lead levels found 
among children in the 1970's. Before the EPA's phase-out of 
diazanon and chlorpyrifos, these two pesticides were frequently 
detected in the core blood of New York City children and 
associated with decrements in birth weight and length. After 
these phase-outs, the pesticides and their association with 
predictors of cognitive potential were no longer detected.
    In the past, the U.S. has taken a more proactive approach 
to protecting children from hazardous chemical exposures. The 
Food Quality Protection Act requires that standards for 
agricultural pesticides be set at levels sufficiently strict to 
protect the health of infants and children, yet this is the 
only Federal environmental regulation that embraces scientific 
reality that children are uniquely vulnerable to many 
environmental chemicals.
    Despite compelling evidence that further efforts are needed 
to prevent further increases in disease and disability of an 
environmental origin among American children, major gaps remain 
in the regulatory approach taken by the EPA to protect 
children.
    Without enforcement of the Clean Air Act, mercury emissions 
from coal-burning power plants will continue to poison the next 
generation of America's children. Clean air standards that 
regulate pollutants known to cause or worsen childhood 
respiratory diseases have been weakened, and new research 
suggests the existing standards require their strengthening.
    Despite the fact that ten million children live within four 
miles of Superfund sites containing high levels of known toxic 
chemicals, the Superfund program remains chronically under-
funded.
    As studies like the one published today in the Journal of 
the American Medical Association document the health effects of 
bisphenol A and other chemicals, families are forced to choose 
products with incomplete information about their safety and 
placed into panic when studies are released documenting their 
health effects.
    Legislation like the Kid-Safe Chemicals act would empower 
EPA to ensure pre-market testing of chemicals that are used in 
consumer products, and broader reform of TSCA is needed to 
ensure that gaps do not remain in testing of chemicals in all 
products.
    It can take 15 or even more years for epidemiologic studies 
to determine whether children are harmed by these exposures 
after the fact, and this approach represents an ongoing, 
unsafe, and unnatural experiment on American children.
    Finally in this testimony I wish to point out the critical 
need for funding the national children's study, which will 
unearth so much information of the health effects of the many 
chemicals for which toxicity data exists.
    I would like to thank the chairwoman, as well as Senators 
Harkin, Specter, and Senator Clinton, as well, for their strong 
support of the National Children's Study. This study will take 
the extra steps to ensure that participation is completely 
voluntary, that environmental and health concerns are reported 
as soon as they are detected, and that families are empowered 
to protect themselves against known harmful exposures.
    The National Children Study is an investment in our 
children and in America's future and will give our Nation the 
ability to understand the causes of chronic disease that cause 
so much suffering and death in our children. It will give us 
the information that we need on the environmental risk factors 
and the gene environment interactions that are responsible for 
rising rates of morbidity and mortality. It will provide a 
blueprint for the prevention of disease and for the enhancement 
of the health in America's children today and in the future. It 
will be our legacy to the generations yet unborn.
    Thank you. I shall be pleased to answer your questions.
    [The prepared statement of Dr. Trasande follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
       
    Senator Boxer. Thank you very much.
    Dr. Brent.


     STATEMENT OF ROBERT BRENT, DISTINGUISHED PROFESSOR OF 
     PEDIATRICS, RADIOLOGY AND PATHOLOGY, THOMAS JEFFERSON 
         UNIVERSITY, A.I. DUPONT HOSPITAL FOR CHILDREN

    Dr. Brent. Good morning. Good morning, Senators.
    My name is Robert Brent. I am a Distinguished Professor of 
Pediatrics, Radiology, and Pathology at the Jefferson Medical 
College, and at the duPont Hospital for Children. I have been 
there 51 years, and I have a great-grandchild, Senator Boxer.
    Senator Boxer. That is great.
    Dr. Brent. Besides 11 grandchildren.
    Senator Boxer. Well, I am catching up to you slowly, 
seriously.
    Dr. Brent. I am here as a scientist. I have had no 
interaction with the Children's Health Protection Advisory 
Committee's relationship with the EPA at all. I learned about 
it here today. But I have had an interaction with the EPA. I 
have been funded by the NIH and the Department of Energy my 
entire scientific life. I have never had a grant from a 
chemical company or pharmaceutical company, and so I am a 
scientist.
    The most important thing a scientist has to do with regard 
to environmental exposures is risk analysis, and in order to do 
risk analysis you have to know the exposure that the population 
receives. That is the tremendous value of the National 
Children's Study, because we are going to get exposures.
    Not only that, I can tell you most of you weren't even born 
when the collaborative perinatal project was done in 1957 to 
1965. They saved that serum. We were able to go back and take 
that serum and find out whether AIDS was present in 1957. it 
wasn't. They looked at 500 prostitutes in 1960 to see whether 
the AIDS virus was there. It wasn't. We did the same thing with 
caffeine. So we are going to save these serum samples, and not 
only will it be prospectively helpful, but it will be 
retrospectively. Ten years later you can go back and look at 
the samples.
    So we need to obtain information where we can do risk 
analysis, and that means serum levels, urine levels of the 
constituents, and we need to be able to relate that to some 
type of risk analysis.
    Well, to do, for instance, a bisphenol study, Rochelle Till 
did a bisphenol study. It cost $2.5 million to do one animal 
study on one chemical. We can't afford that.
    So what has my interaction been with the EPA? In 2003 
Michael Weitzman and I got a grant from the EPA to write a 
supplement to pediatrics on environmental risks. The title of 
the book was, The Vulnerability, Sensitivity, and Resiliency of 
the Developing Embryo, Infant Child, and Adolescent to the 
Effects of Chemicals, Drugs, and Physical Agents.
    In the second chapter we then reviewed all the toxicants 
that are known to find out how sensitive children are. The 
first thing that we found is that about 20 percent of 
chemicals, adult is more vulnerable than a child. That was very 
surprising. Well, it is because very frequently the infant 
hasn't developed the metabolic ability to convert the toxic 
substance to a toxic agent.
    So you can't say that just because the child or an infant 
is a child that they are going to be more sensitive to a 
toxicant. You have got to do the studies.
    So my next interaction was I was put on the Developmental 
Toxicology Committee of the National Academy of Scientists. I 
happen to be a member of the National Academy of Scientists. We 
spent 3 years developing a program, and the book was published 
in 2007. It was called, Toxicology in the 21st Century. In 
there we proposed high throughput toxicity testing where we 
could do thousands of chemicals a year testing. You can't do 
all those chemicals with an animal study.
    I am telling you my good interactions with the EPA. The EPA 
adopted our recommendations before we even finished our 
committee report, and Robert Cadlock, the Ph.D., got a $50 
million grant from the EPA. They have initiated these high 
throughput tests, and they are completing the first phase of 
the study. I don't know whether it will be successful, but it 
is worth pursuing that.
    So these are two areas that we have to pursue. The 
scientists at EPA--I can't tell you about the administrators, 
but the scientists at EPA are working hard to try to solve our 
problem with determining reproductive toxicity. And that is the 
answer--science. That is where I spend my time. I don't get 
involved in these political things.
    I would point out to you, Senator Boxer, you mentioned the 
fact that there is an epidemic of birth defects. I spent my 
whole life studying birth defects. It is not an epidemic of 
birth defects. What happened is it tells you we solve problems. 
In 1908 8 percent of children died from birth defects. In 1988 
25 percent of children died from birth defects in the first 
year of life. Why? Because we got rid of scarlet fever, 
dyptheria, whooping cough, all the diseases, infantile 
diarrhea. So what happens is birth defects make up a higher 
proportion of deaths. It is not because they are increasing. 
See, you have to be careful that you misinterpret the 
information erroneously. You say we have an epidemic of birth 
defects; we don't have an epidemic of birth defects. I wish we 
could prevent all birth defects, but we can't.
    Anyway, my recommendation is science. We have got to 
support the EPA to do the scientific studies. We have got to 
develop risk analysis procedures. When we can't do it with the 
chemical high throughput test, we then take an animal study and 
try to do it. That is our answer. We have got to support 
science. We need more science. We need pharmacokinetics, we 
need tahokinetics, and we have got to use that data to 
determine which of those chemicals out there are at most risk. 
So you have got to depend on science here.
    Senator Boxer. Thank you, Doctor.
    Dr. Brent. By the way, Senator Lautenberg, I hope your 
child is on inhalation steroids, because if he is not in 
inhalation steroids he is going to keep having asthma attacks.
    [The prepared statement of Dr. Brent follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Boxer. Thank you, Doctor.
    I want to correct the record. I never said there was an 
epidemic of birth defects. You must have misheard it. I was 
quoting from Dr. Trasande's work in which he says over the past 
30 years chronic diseases of environmental origin have become 
epidemic in American children and are the diseases of greatest 
current concern. So that is a fellow doctor who didn't say 
birth defects, he said diseases of environmental origin, so 
let's set the record straight.
    Speaking of that, I notice in 2004 in a New York Times 
interview, Dr. Brent, you said Love Canal was an example of a 
terrible environmental problem that should be cleaned up but 
there is no evidence of risk to the people who live there. Many 
fears are irrational. EPA scientists concluded that, taken 
together, the studies suggest significant health risk. Do you 
still stand by what you said in 2004.
    Dr. Brent. What I said was that you have got to determine 
the exposure. If people live around a contaminated area, you 
can't make an assumption that they have a risk because they 
live there.
    Senator Boxer. OK. I am just asking you if you stand by the 
statement, since you said that many fears are irrational and 
the EPA said that the scientific studies suggest significant 
health risks. Do you still stand by what you said in 2004 is my 
question.
    Dr. Brent. I think that many, many fears are irrational.
    Senator Boxer. OK. Very good. OK. Trying to get at that.
    First of all, this was a terrific panel. I wanted to 
underscore and make sure, Dr. Trasande, that I heard you right. 
You said that lead, asthma, developmental disabilities, and you 
added childhood cancer, and I am not sure I left anything out 
of that, adds up to $59 billion per year cost.
    Dr. Trasande. Just a minor correction to your statement, 
Senator.
    Senator Boxer. Yes?
    Dr. Trasande. It is $54.9 billion, and you did State them 
correctly.
    Senator Boxer. That is 4.9 billion? I wrote down 59. I 
wanted to make sure. So 4.9 billion. And do you believe that 
that number is being incorporated into most of these risk 
benefit studies?
    Dr. Trasande. I believe in general that they have not been 
fully incorporated. All too frequently, the costs of childhood 
disease are not being incorporated, and we have seen before 
efforts to discount children's health care costs and children's 
economic productivity at higher rates than most health 
economists would accept as thoughtful.
    Senator Boxer. Well, we have seen this across the board 
where the EPA is devaluing our productivity, and we have a bill 
that we are readying now be dropped because we want to correct 
that. They have lowered the dollar value they put on a human 
life and the worth of it, which is unbelievable to me.
    Dr. Trasande, GAO's report shows that EPA rejected the 
advice of its clean air science advisors, because we are 
talking about science advisors. And I agree with Dr. Brent. 
Scientists are terrific at the EPA and I support them. What I 
rail against is the politicians over there that just don't 
follow the scientists. Frankly, we are all elected officials 
and our job is to balance everything. The scientists are 
supposed to tell the Administration what is the right thing to 
do, and from there he has got to stand by that. That is his 
mission.
    So I am asking you, Dr. Trasande, GAO's report shows that 
EPA rejected the advice of its clean air scientific advisors 
and its children's health experts in setting clean air 
standards for dangerous soot called particulate matter. Could 
you use your doctor-to-parent way of explaining what are the 
impacts of particulate matter on children's health?
    Dr. Trasande. Well, based on what we currently know, and 
based on what the scientific evidence would permit us to say, 
we know that children who are exposed to higher levels of 
particulate matter who are susceptible can develop more asthma 
exacerbations, which is an added economic consequence besides 
the health consequence and the consequence to families' lives. 
So by allowing and permitting higher levels of particulate 
matter in the air, levels at which health effects have been 
documented, you are permitting children to suffer the long-term 
consequences of more asthma hospitalizations, emergency room 
visits, and other medically preventable events.
    Senator Boxer. OK. I want to ask you about another time 
that EPA went against its scientific advisors, which is Dr. 
Brent's point. He said they are terrific, and they are, those 
scientific advisors.
    GAO's report shows that EPA's proposal on a new Clean Air 
Act lead standard goes against the advice of its clean air 
science advisors and its children's health experts. Could you 
describe the impacts of lead on children's health, including 
recent studies on the health impacts of low-dose exposures to 
lead?
    Dr. Trasande. Well, what we know now is that, especially 
with lead, is that the dose doesn't necessarily make the 
poison. I think there are a number of studies that have 
documented that even the lowest level of lead exposure in a 
child's blood stream can have significant consequences. We used 
to think that it was the levels of 25 and 40 micrograms per 
density level--that is the terminology that pediatricians use 
to measure the levels--were the ones that were unsafe. We now 
know that levels at one and two, three, four, five--levels that 
you really can't do anything about in a clinical practice 
setting, we simply can advise parents to do their best to 
prevent it. Those are levels that are associated with impacts 
on learning and cognition. Those are impacts that not only have 
consequences for children's learning and long-term capacity; it 
has to do with their long-term economic productivity. A large 
amount of that economic cost that I quoted you is lost lifetime 
economic productivity from low-level lead exposure.
    Senator Boxer. OK. My time is gone, so I am just going to 
put in the record--and I hope all of you could take a look at 
this--testimony on behalf of the American Academy of 
Pediatrics. This is a whole different subject which we will get 
into next year as we write our global warming bill. This is 
stunning. We are told here that as the climate changes, 
environmental hazards will change and often increase, and 
children are likely to suffer disproportionately from these 
changes. So once again the red flag is up here. Anticipated 
health threats from climate change include extreme weather, 
weather disasters, increases to certain infectious diseases, 
air pollution, and thermal stress.
    Within all of these categories, children have increased 
vulnerability compared to other groups. This is something we 
haven't looked at, colleagues in the Committee, but we are 
going to take this up very soon after we either have a lame 
duck, which is possible. We may take it up in the lame duck, or 
we may take it up next year. So I will place that in the record 
and call on Senator Barrasso, to be followed by Senator 
Lautenberg, Senator Clinton, and then we will be done.
    Senator Barrasso. Thank you, Madam Chairman.
    Dr. Trasande, thank you. Looking through your testimony, 
there are a couple of areas that I took some exception with. 
You said children are uniquely vulnerable to many of the 90,000 
chemicals that are released into the environment every day. By 
our numbers, there are actually only 82,000 chemicals on 
inventory. An estimated no more than 12,000 are currently in 
commerce. I think you may want to re-check your numbers on 
that.
    Dr. Trasande. If I may respectfully respond, the estimate 
of 82,000 is a very old number. There are 1,000 to 3,000 new 
chemicals introduced into commerce each year. I think it is 
fair to say that that number has increased to 90,000 at the 
present time.
    Senator Barrasso. You go on to say of the 3,000 most highly 
used chemicals, fewer than half have any toxicity testing, but 
you take a look at what has been submitted to the EPA and now 
publicly available on the EPA website, 97 percent of the 
chemicals on that high-production volume chemical challenge 
program are already out there.
    I know you are very bright, Harvard undergraduate, Harvard 
Medical School, Harvard master's program. You worked for 
Senator Clinton's staff. I understand. I imagine you are going 
to continue to testify over the years. Just, if we could, make 
sure we have all that accurate.
    Dr. Brent, it is a privilege to have you here. The 
incredible background. I have known of your name and admire all 
that you have done in your incredible career.
    I have three-and-a-half minutes left. You had a lot more to 
say when you were talking. I would be happy to just give you 
the three-and-a-half minutes to say continue talking about what 
you wanted to talk about in terms of what you really see as 
important for children's health and what we need to do in terms 
of safety factors for protecting our children.
    Dr. Brent. First of all, it is a privilege to be here.
    I want to say that we find out that some of our beliefs 
with science turn out to be wrong. For instance, in 1956 Alice 
Stewart in England wrote a paper about the fact that a fetus 
was very sensitive to the leukemogenic effect of x-rays. She 
said the fetus was 100 times more sensitive than the child or 
the adult to the leukemia effects of x-rays. Well, we got a 
contract from the Atomic Energy Commission and Robert Drew at 
Columbia got a contract from the Atomic Energy Commission and 
we did animal studies and we didn't get one or two rads, which 
she had from pelvimetry, very low doses she claimed that cause 
leukemia. We get 30, 60, and 90 rads. We couldn't produce 
tumors in an animal model.
    Well, I am schooled in the fact that you don't refute human 
epidemiology studies with animal studies. You just don't.
    Well, in March of this year Dr. Preston from the Atomic 
Energy Commission in Japan just did the 60-year followup study 
on the fetuses, and they found that the fetus was much less 
sensitive to the leukemogenic effects than the children. In 
fact, there was a threshold. You have to get way above the 
diagnostic level before we even begin to see any tumor 
induction.
    So we learn with research, you know. Unfortunately for the 
Japanese they have learned a lot about radiation, but that is 
exactly what the animal studies told us. Alice Stewart was 
wrong in her study, a case control study. So we are learning 
all the time, and that is why I am so warm on the fact that we 
have got to continue investigations at the animal level, the in 
vitro studies, and human epidemiology, and that the child study 
is so crucial for our future to get information and find out 
how important environmental toxicants are, because there are 
big question marks about so many of them.
    Senator Barrasso. Anything else in terms of how we are 
doing? I mean, you were a graduate of medical school when I was 
1 year old, and I was probably graduating when Dr. Trasande was 
1 year old, so you look at this. How are we doing?
    Dr. Brent. How do you know I didn't start when I was seven? 
Actually, I started college when I was 15, so I got a head 
start.
    Well, I just think, you know, as a scientist I just believe 
in the importance of science. There is no other. I mean, I 
happen not to agree with my colleague over there. I think he 
exaggerates a great deal, I mean really exaggerates a great 
deal. Those numbers that he pulls out of his hat, I don't know 
where he gets them from with regard to--certainly, there is no 
question there is an asthma epidemic, and I wish I knew the 
etiology. I can tell you this about asthma, though: when I 
became chairman of the Department of Pediatrics, the allergists 
in our department requested a four-bed intensive care unit for 
status asthmatic. That is when children would come in with 
intractable asthma. We don't need it any more because we can 
manage asthma now.
    Now, the fact that the disease is there is terrible, but we 
don't have children dying from asthma like we did 30 or 40 
years ago, so our treatment has gotten better. Now if we could 
only find out what the etiology is, because I can tell you for 
some people tobacco smoke does it, perfume does it, air 
pollution does it. I mean, it is a trigger there. We just don't 
know the answer.
    Senator Barrasso. And Teddy Roosevelt's dad believed that 
cigar smoke was actually a good treatment, so he would have 
Teddy Roosevelt at the age of eight, when he was having asthma 
problems, be treated with cigar smoke.
    Dr. Brent. Cigars are all right if you don't light them up.
    Senator Barrasso. Thank you very much, Dr. Brent.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Chairman's prerogative here. First of all, asthma is 
controllable. We know diseases are controllable. We all know 
that. But you should have been here when Jonah Ramirez 
testified, 11 years old, what his life is like. Frankly, 
Doctor, you have it all over me on degrees in medicine. I am 
just a Jewish mother and grandmother. I know about chicken soup 
and other things.
    Dr. Brent. Well, that works.
    Senator Boxer. But this is the first time I ever heard we 
don't know the cause of asthma, but maybe I have missed the 
boat and not done enough reading. But let me just say you and 
Senator Barrasso have attacked Dr. Trasande. You said what he 
said was wrong, and I think we are going to give him 2 minutes 
to respond at that point.
    I just need to reiterate this. I don't know who Alice 
Stewart is and I never mentioned her name. I do know that the 
scientists at the EPA have given advice to the EPA 
Administrator and he has ignored it, so you keep raising the 
need for science, and so does Senator Barrasso, without making 
the necessary next step, which is that is all we are fighting 
for on our side here is that the science that is being given to 
Mr. Johnson has been ignored.
    I am going to let Dr. Trasande have 2 minutes.
    Dr. Trasande. I thank the Chair. I don't think I will take 
the whole 2 minutes, but I will flesh out some points in 
response.
    I know Senator Barrasso commented about some of the data 
that have been preliminarily put up about the voluntary 
children's chemical evaluation program. The EPA has essentially 
produced data on essentially a total of six chemicals at this 
current juncture, and are well behind any goal that would have 
been realistic to expect of the EPA to achieve. I think we all 
had hoped that the VCEP would be a tremendous opportunity to 
identify chemical safety thresholds in a way that was driven by 
the science. I would fully respect that, and I supported it 
when I saw the idea. It just has not delivered and we still 
have major gaps.
    I do stand by my estimates. They are the most recently 
publicly available EPA estimates about the percentage of 
chemicals for which there are data regarding their safety.
    With regard to a number of the comments that perhaps some 
of the data I presented might be exaggerated, I would be happy 
to show Dr. Brent and Senator Barrasso, I would be happy to 
introduce for the record a manuscript published in pediatrics 
about a year after Dr. Brent's package of manuscripts was 
published in which we document the case for the National 
Children's Study, and every one of the points that I have made 
and documented in this testimony is supported in reference and 
quote and chapter and verse in that manuscript, so I would be 
happy to submit that for the record.
    I am not a fearmonger. I simply State the science. I stick 
to it. I State what we can make in terms of logical 
consequences of that. I think we can agree to disagree about 
policy implications of that science, but I think we can agree 
about the science.
    I appreciate the thoughts. We will always have a vigorous 
debate about them.
    I thank the Senator, and I have great respect for Dr. 
Brent, as well. Thank you.
    Dr. Brent. Can I say one word?
    Senator Clinton. [Presiding] Yes, you can say one word.
    Dr. Brent. When you use the word safe, that a compound is 
safe, that is an unscientific term because a compound is safe 
or not safe depending on its exposure, and so you have to know 
the exposure. If the compound is going to be in parts per 
trillion, any compound will be safe. If it is going to be in 
milligrams per kilogram, most compounds are going to be unsafe. 
So you can't label a compound as safe or unsafe; you have to 
know what the population is going to be exposed to.
    Senator Clinton. You know, Dr. Brent, I think we are having 
a vigorous agreement here. I believe that your emphasis on 
science and doing the best science is exactly in line with Dr. 
Trasande's similar commitment. Sometimes when you put into lay 
language what it is you are talking about you might use terms 
that are not scientific but which are understandable. But I 
think it is important that each of our witnesses has 
underscored the significance of the National Children's Study, 
something that we must proceed on. I am hoping that we will get 
a lot of support to do that from both sides of the aisle, 
because that is the best way for us to proceed--to have the 
rigorous scientific inquiry that we know will lead to answers.
    Senator Lautenberg?
    Senator Lautenberg. Thank you very much, Senator Clinton.
    A couple things here strike me immediately, and I thank 
you, Dr. Brent, for the advice that I will send up to my 
daughter right away. I think we have probably tried everything.
    Dr. Brent. Children are uncompliant. It is one thing to get 
an adult to inhale a steroid every day; the next thing is to 
get a child to do it every day. That is the problem.
    Senator Lautenberg. Well, I thank you. And I assume this 
comes without charge.
    Dr. Brent. I don't charge anybody.
    Senator Lautenberg. In any event, it has been very 
interesting, and you have a role as a grandfather. You said you 
have 11.
    Dr. Brent. Great.
    Senator Lautenberg. A great-grandfather?
    Dr. Brent. Both.
    Senator Lautenberg. Both. I don't have any great-
grandchildren, but I have 11 grandchildren, composed of my 
wife's family and mine. So we thank you for your contribution, 
all of you.
    Dr. Trasande, with that youthful appearance, how did you 
get so much knowledge in this period of time? Do you know Dr. 
Holland? Do you know who he is?
    Dr. Trasande. I can't say I know him.
    Senator Lautenberg. He is at Mount Sinai as well.
    Dr. Trasande. Oh, Dr. Eric Hollander? Yes, I mis-heard you. 
I apologize.
    Senator Lautenberg. Holland. Jim Holland?
    Dr. Trasande. Jim Holland? I am sorry. I can't say I do.
    Senator Lautenberg. In any event, as the use of chemicals 
in everyday products has increased, so have the rates of 
autism. Autism has grown nationally over the last 10 to 17 
percent annually. In my State of New Jersey it has been an 
annual growth rate over a period of some years of 22 percent.
    Now, as the use of chemicals in everyday products, so have 
rates of autism, birth defects, and other health problems. Now, 
are these coincidental relationships? Are they real? I kind of 
held off by Dr. Brent's view on things, and respectfully so.
    Dr. Trasande. Well, respectfully, I would agree that the 
evidence is not Mount Kilamanjaro in size, but it is increasing 
in consistency and reproducibility. Those are the criterion by 
which, in our field, we make decisions about what consequences 
to communicate to families for prevention and for management of 
conditions. I think, based upon what we know, there is very 
strong and compelling evidence to support that air pollutants 
contribute to asthma, and potentially even to the causation of 
asthma. I would say the evidence is much stronger with regard 
to the exacerbation of asthma.
    With regard to the origin of developmental disabilities, 
there is a National Academy of Sciences report that documented 
that 28 percent of developmental disabilities can be attributed 
at least in part due to environmental factors. The majority of 
that is probably a complex mix of genetics and environment, the 
gene being the gun and the environment being the trigger, to 
borrow a poor analogy. But, based on that evidence, at least 
just for those two examples, there is enough to drive what I 
think you are in a position to do, to make decisions about what 
policy actions need to be taken proactively to prevent disease 
and to prevent costly diseases.
    These diseases are clearly extremely complex. The National 
Children's Study, because of its sample size of 100,000, will 
be able to get at all of the potential interacting factors and 
really tease them out. That is really what has made determining 
the role of chemicals in human disease after the fact so 
difficult. Ideally we would have the chemical data for toxicity 
before they would go on the market, but we are now back-
peddling constantly as scientists and clinicians, and that is 
really why I see a two-pronged approach, an approach through 
toxic chemical reform simultaneously with moving proactively 
with the National Children's Study so that we can work at it 
from both ends and really prevent childhood morbidity.
    Senator Lautenberg. We are kind of running out of time. I 
want to say thank you for your comments about my bill, Kid-Safe 
Chemical Act, because I believe I have used the term right to 
know for several things that I have done, chemical hazards in 
areas, bottled water most recently. I wanted to know more about 
what is in those bottles. And kid-safe chemicals is that type 
of thing where the information is given in advance so it can be 
examined.
    We thank you for your testimony, Ms. Marmagas and Dr. 
Trasande and Dr. Brent, of course. We respect what you had to 
say.
    With that, Madam Chairman, I assume that we will keep this 
record open so that we can submit questions to the witnesses in 
writing?
    Senator Clinton. Without objection, we will.
    I want to thank all of our witnesses. I want to take a 
moment to tout the work of New York's Mount Sinai Medical 
Center. I am very proud to represent it as part of my 
constituency. It is a leader in children's environmental health 
research and home to one of the EPA-funded pediatric 
environmental health specialty units. It is also a vanguard 
site for the National Children's Study. I am very proud of Dr. 
Trasande, who is a pediatrician and assistant professor of 
community and preventive medicine in pediatrics at Mount Sinai 
and co-directs the Children's Environmental Health Center, the 
first academic policy center devoted to learning more about the 
environmental threats to the health of children.
    As I said earlier, I think we are in vigorous agreement. 
There is a lot of work to be done. None of us has the answers. 
The purpose of this hearing was to point out that in many ways 
the current Administration and certainly the leaders of the EPA 
have been disregarding science. We saw the big chart from the 
GAO where several scientific advisory groups made a certain 
recommendation with respect to particulate matter in the 
quality of our air, both of which were disregarded.
    I have a personal experience going back to 9/11 where the 
scientists at EPA wanted to issue warnings for vulnerable 
populations with respect to the air quality following the 
collapse of the World Trade Center and the enormous number of 
chemicals that were unfortunately heated and brought together 
in those terrible events. The scientists were very clear that 
warnings should go out--people subject to asthma, people whose 
immune systems were vulnerable, et cetera. Changed in the White 
House for political reasons.
    So our goal in this Committee is not to have a Republican 
or a Democratic view of science; it is to respect the work of 
science and to try to provide a pathway for scientific research 
to inform and guide our decisionmaking.
    There will be differences on policy, but I think we are 
united in our efforts to try to support scientific research in 
appropriate ways and to fund it adequately. That is why I am so 
committed to the support of the National Children's Study. It 
is going to be essential if we are going to find answers to a 
lot of these questions.
    I agree with Dr. Brent. There are so many complex factors 
at work--the level of toxicity, the vulnerability of the person 
who is exposed. There is all of that. But we are at a point now 
where we have got to begin to understand the variations and to 
be able to provide adequate information to people to protect 
themselves. I appreciate the testimony from Ms. Marmagas about 
her service on the Children's Health Protection Advisory 
Committee. That was an effort to try to bring together 
somewhere in our Government, appropriately at EPA, the 
expertise and the resources to help us further our 
understanding as to what we need to do to better protect our 
children, as well as adults.
    So I am looking forward to continuing the work on this 
Committee, and particularly summoning up support for the 
National Children's Study and getting it funded so that we can 
have these benchmarks that we need to educate the public and to 
inform our policymaking.
    With that, Senator, unless you have any further questions I 
want to thank the witnesses very much. We will keep the record 
open so that additional questions and information can be 
submitted.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma
    Today we will again examine the adequacy of EPA's regulatory 
process by hearing testimony regarding whether the Agency appropriately 
considers children's health concerns. As a father and grandfather, 
protecting the health and well-being of children is of great personal 
importance to me. That is precisely why I believe that EPA's risk based 
regulatory process and science based review is the best way to ensure 
that human health--particularly the health of children--is protected in 
a way that also protects the way of life enjoyed by the American 
family.
    This morning, we will hear from the official who directs the 
science of EPA's regulatory process, as well as from a representative 
of the agency tasked with critiquing EPA's success. We will also hear 
from stakeholders with their own views about how best to protect the 
health of our nation's children. I believe in the integrity of EPA's 
scientific process, and particularly in the Agency's ability to 
evaluate risk and formulate regulations that properly mitigate those 
risks.
    Whether the concern is air, water, chemicals or other environmental 
factors, assessment of risk based on validated science must rule the 
day. Uncertainty, fear and precaution are not based in science, and 
actually prevent us from enjoying the benefits of technology and 
innovation.
    I do believe that it is important for EPA to seek out and consider 
the advice of non-governmental experts and public opinion. However, the 
ultimate responsibility to the implement the law falls squarely on the 
Agency's doorstep. EPA is barraged with formal and informal advice from 
a variety of sources--it is their duty to sort through that information 
and seek balance among the many competing perspectives. It is no secret 
that I have certainly disagreed with some of the Agency's actions and 
decisions. However, at the end of the day, I firmly believe that EPA 
holds the preeminent expertise in evaluating the risks posed to human 
health from environmental exposures. That expertise makes EPA most 
qualified to establish how best to protect the health of every man, 
women and child.
    I look forward to hearing from each of the witnesses, and I thank 
you for taking the time to be here and share your perspectives on 
protecting children--born and unborn--from environmental risks.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
